<html>
<title> - PROGRESS REPORT ON PUBLIC TRANSPORTATION UNDER MAP-21</title>
<body><pre>[Senate Hearing 113-372]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-372
 

         PROGRESS REPORT ON PUBLIC TRANSPORTATION UNDER MAP-21

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING HOW THE PROGRAMMATIC REFORMS AND NEW AUTHORITY PROVIDED TO
FTA IN THE PUBLIC TRANSPORTATION TITLE OF THE MOVING AHEAD FOR PROGRESS
IN MAP-21 HAVE BEEN IMPLEMENTED SINCE 2012 AND OTHER ISSUES CONCERNING
                         PUBLIC TRANSPORTATION

                               __________

                            JANUARY 16, 2014

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban
                                Affairs


                 Available at: http: //www.fdsys.gov /

                               __________

                        U.S. GOVERNMENT PRINTING OFFICE

   89-544 PDF                       WASHINGTON : 2014
   -----------------------------------------------------------------------
   For sale by the Superintendent of Documents, U.S. Government Printing
     Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800;
     DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC,
                        Washington, DC 20402-0001


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              MIKE CRAPO, Idaho
CHARLES E. SCHUMER, New York         RICHARD C. SHELBY, Alabama
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
MARK R. WARNER, Virginia             PATRICK J. TOOMEY, Pennsylvania
JEFF MERKLEY, Oregon                 MARK KIRK, Illinois
KAY HAGAN, North Carolina            JERRY MORAN, Kansas
JOE MANCHIN III, West Virginia       TOM COBURN, Oklahoma
ELIZABETH WARREN, Massachusetts      DEAN HELLER, Nevada
HEIDI HEITKAMP, North Dakota

                       Charles Yi, Staff Director

                Gregg Richard, Republican Staff Director

                  Laura Swanson, Deputy Staff Director

               Homer Carlisle, Professional Staff Member

                    Phil Rudd, Legislative Assistant

                  Greg Dean, Republican Chief Counsel

          Rachel Johnson, Republican Professional Staff Member

                       Dawn Ratliff, Chief Clerk

                       Taylor Reed, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)


                            C O N T E N T S

                              ----------

                       THURSDAY, JANUARY 16, 2014

                                                                   Page

Opening statement of Chairman Johnson............................     1

Opening statements, comments, or prepared statements of:
    Senator Crapo................................................     2

                               WITNESSES

Peter M. Rogoff, Administrator, Federal Transit Administration,
  Department of Transportation...................................     3
    Prepared statement...........................................    29
    Responses to written questions of:
        Senator Crapo............................................    54
        Senator Menendez.........................................    54
        Senator Heitkamp.........................................    56
David Wise, Director, Physical Infrastructure Issues, Government
  Accountability Office..........................................     5
    Prepared statement...........................................    36
    Responses to written questions of:
        Senator Crapo............................................    59

                                 (iii)

 
         PROGRESS REPORT ON PUBLIC TRANSPORTATION UNDER MAP-21

                              ----------


                       THURSDAY, JANUARY 16, 2014

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:05 a.m., in room SD-538, Dirksen
Senate Office Building, Hon. Tim Johnson, Chairman of the
Committee, presiding.

           OPENING STATEMENT OF CHAIRMAN TIM JOHNSON

    Chairman Johnson. This hearing will come to order.
    Today, the Banking Committee seeks to review how public
transportation and the Federal programs that assist our
Nation's transit providers have advanced since the current
surface transportation law, MAP-21, was enacted in 2012. This
Committee worked well together on the transit provisions of
MAP-21 and I look forward to continuing our Committee's
bipartisan work on public transportation issues.
    Reliable and accessible public transit is vital in rural
areas like South Dakota, just as it is vital in large cities.
Our transit systems connect workers with employers, keep cars
off congested roads, and get people where they are going safely
and affordably.
    The public transportation title developed by the Banking
Committee for MAP-21 made many important changes to Federal
transit programs. To name just a few, MAP-21 provided authority
to the Federal Transit Administration to institute a much
needed national framework for safety oversight; it created the
Transit Emergency Relief Program that is helping New York and
New Jersey transit agencies recover from Superstorm Sandy; and
in Indian Country, MAP-21 provided new formula funds to 83
Tribes across the Nation to help them deliver safe and reliable
transit services to one of the most underserved segments of the
U.S. population.
    Our focus today will be on the implementation of MAP-21,
but we cannot overlook the state of the Highway Trust Fund. The
Mass Transit Account is expected to reach the end of MAP-21 on
September 30 with only a very small positive balance, and the
Highway Account could face a shortfall by late December.
Without Congressional action, both accounts will be unable to
support current program funding levels after MAP-21 expires.
Federal transportation investment this year and beyond depends
on the stability of the Trust Fund. The Banking Committee will
be working with the Environment and Public Works, Commerce, and
Finance Committees in the coming months to advance legislation
to succeed MAP-21, but we must first review progress under the
current law.
    Today, we will hear directly from FTA on how they have
implemented MAP-21. I look forward to hearing details about
FTA's strategies to improve safety and asset management
practices while minimizing any new administrative costs for
grantees, particularly small and rural transit providers. The
Committee will also hear about how MAP-21's changes to project
development and program structure are proceeding. Finally, the
Committee will examine issues that GAO has profiled in its
research, such as the need for coordination at the local level
to ensure that the varied Federal programs that assist local
transportation services are working together effectively.
    Now, I turn to Senator Crapo for his opening statement.

                STATEMENT OF SENATOR MIKE CRAPO

    Senator Crapo. Thank you, Mr. Chairman.
    In July 2012, Congress passed and President Obama signed
into law the Moving Ahead for Program in the 21st Century Act,
known as MAP-21, which authorized transportation programs
through September 30, 2014. Since the enactment of this
legislation, the Federal Transit Administration, or FTA, has
been working to implement its transit provisions. At this
point, MAP-21 programs are authorized for only another 8\1/2\
months. Today, we will hear from witnesses on implementation of
MAP-21's transit provisions.
    Some of the provisions that are of interest to me: MAP-21
provided FTA with new authority in the area of transit safety.
While public transportation is one of the most safe modes of
transportation, I look forward to an update on what progress
has been made to improve passenger safety. I also want to
understand how FTA is approaching this issue.
    In Idaho and other States, many transit providers operate
in rural areas and with very small staff, often only one to two
or three people. It is important that new rules be tailored in
a way that is not unduly or disproportionately burdensome to
smaller or rural systems, especially as rural transit has a
good safety record.
    Rural transit agencies in Idaho and elsewhere provide
vitally important transportation services. For example, they
facilitate transportation for the elderly and persons with
disabilities to medical appointments and low-income individuals
to jobs. If new regulations are burdensome, it will be harder
for providers to deliver service.
    MAP-21 also directed the FTA to establish a National
Transit Asset Management System to aid in understanding and
assessing the condition of public transportation systems.
Public transportation simply cannot be captured with a one-
size-fits-all approach. There are many different types of
transit systems and a great deal of diversity with respect to
the needs of each system in our Nation. I look forward to
hearing how FTA intends to implement the asset management
provisions.
    I hope that the level of detail that transit providers will
be required to provide to FTA will be practical and not
excessive. For rural systems, reporting on the age and mileage
of the vehicle could be enough. Understanding where the FTA is
in implementing MAP-21 will aid us when we begin to consider
the reauthorization later this year.
    I recognize that short-term extensions do not allow the
kind of predictability and security that a longer-term
authorization can. However, as Federal dollars are collected
for transportation and have fallen below our expenditures, it
is no secret that the most difficult issue to be considered
during the next reauthorization is how to refinance our
transportation needs going forward. This includes finding a
meaningful fix to the serious current inadequacies of the
Highway Trust Fund. MAP-21, a bill with just over 2 years of
authorization, was financed using 10 years of pay forwards. We
must be very careful with what we do with respect to financing
this bill in the future.
    Again, I thank our witnesses for being here and I look
forward to their statements, and I thank you, Mr. Chairman, for
your attention to this issue.
    Chairman Johnson. Thank you, Senator Crapo.
    Are there any other Members who would like to give a brief
opening statement or submit a statement?
    Senator Reed. Mr. Chairman.
    Chairman Johnson. Senator Reed.
    Senator Reed. Mr. Chairman, I would like to submit a
statement for the record that echoes your questions and Senator
Crapo's questions about the adequate funding of the Mass
Transit Account and the Highway Trust Fund.
    Thank you, Mr. Chairman.
    Chairman Johnson. Anybody else?
    [No response.]
    Chairman Johnson. I would like to remind my colleagues that
the record will be open for the next 7 days for additional
statements and any other materials.
    Now, I would like to introduce our witnesses: Peter Rogoff
is the Administrator of the Federal Transit Administration.
David Wise is Director of Physical Infrastructure Issues at the
Government Accountability Office. I look forward to the
testimony of both witnesses.
    Mr. Rogoff, please proceed with your testimony.

 STATEMENT OF PETER M. ROGOFF, ADMINISTRATOR, FEDERAL TRANSIT
          ADMINISTRATION, DEPARTMENT OF TRANSPORTATION

    Mr. Rogoff. Thank you, Chairman Johnson, Members of the
Committee. Thank you for this opportunity to discuss the
Federal Transit Administration's progress in implementing the
new MAP-21 law.
    Across the United States, transit ridership is on track to
exceed 10 billion trips annually for the seventh year in a row
and transit has shown marked growth in 9 of the last 11
quarters. This is a remarkable milestone. Now, more than ever,
Americans in cities, suburbs, and rural communities are asking
for more transit, not less. They are seeing the benefits of
spending less money on gasoline and less time in traffic. And
at the State and local level, citizens are continually voting
to tax themselves to help finance new transit services in their
communities.
    The MAP-21 law championed by this Committee on a bipartisan
basis is a game changer that puts the FTA on the road to
delivering transit better and more efficiently in communities
nationwide. It has been called a 2-year authorization bill that
contains 7 years of policy changes, and I think that is about
right. Not since the enactment of the ISTEA law in 1991 have
there been such profound and substantive policy changes to our
transit statutes.
    It is also quite complex, involving, at a minimum, 27 new
and updated rulemakings, 14 new and revised circulars, 13
separate reports to Congress. At the FTA, we have an active and
engaged team and an aggressive timetable to implement the law,
and while much work remains, we have made significant progress
despite the impact of the 2013 Continuing Resolution, a 5-
percent cut to our administrative budget as a result of
sequester, and a furlough that kept more than 95 percent of
FTA's employees from working for more than half a month.
    Let me begin with safety. I thank this Committee for
working in such a bipartisan way to provide FTA with the tools
the administration requested to establish minimum common sense
safety standards for public transportation. We are making good
progress. We have reached out to State safety oversight
agencies in 30 States, so they understand what is needed to
enforce new safety guidelines consistently and free of any
conflicts of interest.
    And in October, we issued a very comprehensive Advanced
Notice of Proposed Rulemaking on both safety and transit asset
management. While we were not required by MAP-21 to combine
these two rulemakings, we did so quite deliberately to send a
clear signal to our stakeholders that keeping a transit system
as safe as possible goes hand in hand with adequately managing
and maintaining the system's physical assets. The transit
industry faces an $86 billion backlog in system preservation
needs, and we are under-investing in that need by $2.5 billion
a year.
    When it comes to our new safety authorities in MAP-21, we
fully recognize that a one-size-fits-all approach will not
work. Effective and affordable safety improvements for the New
York City Subway System are going to be very different than
those that will improve the safety of bus operations at Topeka
Metro in Kansas. Our entire approach to our new safety
regulatory authority is focusing on adding value and keeping a
safe industry safe. We are rejecting approaches that add
unnecessary costs and bureaucracy.
    As it relates to our New Starts/Small Starts Program, since
2009, FTA has executed 26 multiyear construction grant
agreements. One hundred percent of the completed projects on
this list were on time and on budget; the rest are very much on
track to do so.
    Under MAP-21, we have continued to cut red tape and
streamline the program. For example, just recently, we
introduced a new software tool enabling some communities to
reduce from 2 years to 2 weeks the time needed to develop
ridership forecasts on planned projects. This new tool could
save taxpayers in some communities as much as a million
dollars.
    Because of the constraint on time, we have obviously made
huge progress on the Emergency Relief Program. This Committee
authorized a new Emergency Relief Program, as requested in our
budget, just in time for Hurricane Sandy, but since I have
already testified to this Committee at length on Hurricane
Sandy, I am going to save that part of my testimony for later.
    Importantly, I do want to put out a word of warning
consistent with what the Chairman said as it relates to the
balances of the Mass Transit Account of the Highway Trust Fund.
At the time MAP-21 was enacted, the cash balance of the Trust
Fund was thought to be sufficient to last us through the end of
this fiscal year. As I sit here today, I cannot be sure that
this will be the case. We have very similar worries for our
colleagues at the Federal Highway Administration, whose Trust
Fund account is also rapidly approaching insolvency.
    We are working with the Treasury Department to update
program outlay and revenue assumptions, which will be reflected
in the President's budget when it is submitted. Importantly,
just yesterday, Secretary Foxx announced his plan to post on
the DOT Web site the monthly updates that will show all of
America how soon our Trust Funds will start bouncing checks to
our highway departments and our transit agencies.
    Mr. Chairman, I look forward to working with this Committee
as we strive to make our vision of a better transit future
under MAP-21 a reality and as we work to shore up our Trust
Funds.
    This concludes my testimony and I will be happy to answer
any questions you have at a later time.
    Chairman Johnson. Thank you.
    Mr. Wise, you may proceed.

  STATEMENT OF DAVID WISE, DIRECTOR, PHYSICAL INFRASTRUCTURE
            ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Wise. Chairman Johnson, Ranking Member Crapo, and
Members of the Committee, I am pleased to be here today to
discuss GAO's recent work on transit issues.
    Millions of passengers use transit services on a daily
basis and many of the local transit agencies providing these
services receive Federal funding. The Federal Government plays
a key role in supporting public transportation, with MAP-21
having authorized over $10.5 billion in both fiscal year 2013
and 2014.
    While MAP-21 did not address long-term funding concerns, it
did address a number of other issues, including strengthening
Federal authority to oversee transit safety, emphasizing
restoring and replacing aging infrastructure, consolidating
some programs and grants, and streamlining project development,
evaluation, and delivery.
    My statement today describes our recent work on three
related transit issues, addressing long-term funding
challenges, improving capital investment decision making in
regards to maintenance and expansion of transit systems, and
coordinating transit services among various Federal and State
or local agencies.
    Federal funds available for the FTA's transit programs come
from two sources, the U.S. Treasury's General Fund and the Mass
Transit Account of the Highway Trust Fund. Both these sources
face challenges. Currently, Congressional budget discussions
raise issues about the level of General Fund Federal spending.
Another significant funding challenge is the declining revenue
of the Highway Trust Fund. Revenues into the Fund have eroded
over time, in part because Federal fuel tax rates have not
increased since 1993, and in part because of improvements in
vehicle fuel efficiency.
    The CBO estimated in May 2013 that to maintain current
spending levels plus inflation between 2015 and 2022, the Fund
will require over $132 billion more than it is expected to take
in over that period. About $35 billion of that amount would be
in the Transit Account. To maintain current spending levels and
cover revenue shortfalls, Congress has transferred more than
$50 billion in general revenues to the Fund since fiscal year
2008. This approach may not be sustainable, given competing
demands and the Federal Government's growing fiscal challenges.
For this and other reasons, funding surface transportation
remains on GAO's High-Risk List.
    Some of our recent work describes how sound capital
investment decisions can help transit agencies use Federal and
other transit funds more efficiently. MAP-21's requirements to
transit agencies to use asset management are consistent with
our analyses. For example, our 2013 report recognized that many
of the nearly 700 public transit agencies struggle to maintain
their bus and rail assets in good repair. We reported that to
help prioritize capital investments, transit agencies would
benefit from estimating the effects of those investment
decisions.
    However, of the nine transit agencies we visited, only two
measured the effects of capital investments on the condition of
certain transit assets. Further, none of the agencies measured
the effects on future ridership, in part because they lack the
tools to determine those effects. Accordingly, we recommended
that FTA conduct additional research to help transit agencies
measure the effects of capital investments, including impact on
future ridership.
    To expand or improve public transportation, transit
agencies may use the capital funding available through FTA's
New and Small Starts Program. An example of this is bus rapid
transit, whereby transit agencies can seek to improve service
and encourage economic development at a cost relatively less
than rail. We found that the median cost for the 30 BRT and 25
rail transit projects we examined from October 2005 to February
2012 were about $36 million and $576 million, respectively.
While many factors may contribute to economic development,
officials in Cleveland, Ohio, told us that an estimated $4 to
$5 billion had been invested near the HealthLine BRT project,
associated with major hospitals and universities in the
corridor and about one-third the cost of a comparable rail
project.
    While essential in a constrained funding environment,
effective transit coordination can be challenging. In our 2012
report on services for transportation disadvantaged
populations, we found that 80 different programs and eight
agencies fund a variety of transportation services related to
education, employment, medical, and other human services. We
concluded that improved Federal leadership and guidance for
further collaboration efforts could improve the coordination of
transportation services among State and local providers.
    FTA has made some progress in enhancing coordination for
this population. According to FTA officials, as a result of
MAP-21, the agency has been updating program guidance and has
issued draft program circulars for a number of relevant
programs. In addition, FTA continues to support Federal
programs that play an important role in helping those
populations by providing funds to State and local grantees
that, in turn, offer services either directly or through
private or public transportation providers.
    Chairman Johnson, Ranking Member Crapo, and Members of the
Committee, this concludes my statement. I would be pleased to
answer any questions at this time.
    Chairman Johnson. Thank you all for your testimony.
    As we begin questions, I will ask the Clerk to put 5
minutes on the clock for each Member.
    Mr. Rogoff, last fall, FTA asked for extensive input from
the public transportation industry on the new transit safety
and asset management framework. The Committee has heard from
many bus providers that requirements for safety and asset
management should be closely tailored to their size and State
DOTs should be allowed to assist rural bus systems with all
reporting. How is FTA utilizing the feedback from providers to
ensure that the new safety and asset management framework will
not take resources away from delivering transit service?
    Mr. Rogoff. Thank you, Mr. Chairman. We share the concern
on the risk, or the pitfall, if you will, of stumbling into a
regime where we are adding a bunch of bureaucracy that just
distracts operators from their core mission that we are calling
on them to do, and that is move people. We have been careful
and crafted a number of questions in our ANPRM to solicit that
industry input and we are currently digesting hundreds of
comments that we have gotten from all sectors of the industry.
But we are keenly aware that we gain nothing by creating a big
paper tiger that does not add value. If we do this right, the
transit operators at the local level, large and especially
small, will see the value that comes from these reporting
requirements and reflecting on their safety profile.
    It is worth remembering that in the initial transit safety
legislation that the Obama administration submitted to this
Committee, we had planned to focus on rail exclusively at the
beginning. That is still our focus. The Committees went another
way in terms of doing a broad-brush approach that captures both
the rail industry as well as the bus-only operators, but we
certainly plan to tailor that to the capabilities of those
operators.
    Importantly, a lot of our work in this area is going to be
guided by our Safety Advisory Committee, which was a formal
advisory committee set up by Secretary LaHood when we first
transmitted our legislation to Congress. We are now going in
the wake of MAP-21 to recruit more bus-only operators onto that
committee to advise us as we go forward. We are not going to do
this in some vacuum in Washington, DC. As someone who puts
forward taxpayer dollars in large percentages, especially to
the small and rural operators, we have absolutely no incentive
to see those dollars distracted by a bureaucracy and not into
service.
    Chairman Johnson. Good. A question for David Wise and Peter
Rogoff. GAO has reported on the difficulty in coordinating
transportation for transportation disadvantaged individuals and
providing duplicative services. Could you both offer thoughts
on why coordination is such a problem, and what are the next
steps for improving coordination between Federal programs,
particularly with Medicaid, which is estimated to spend between
$1 and $3 billion annually on nonemergency medical
transportation. Mr. Wise, your thoughts first.
    Mr. Wise. Thank you, Mr. Chairman, for that question. Yes,
we definitely share the view that transit coordination is a
significant challenge, and as we noted in our statement, we had
two recommendations to the Federal Transit Administration in
this area. One of them is that DOT and the Coordinating Council
that was set up to try to coordinate the services that are
spread among eight Federal agencies and 80 programs, address
this recommendation by developing a strategic plan. This has
happened and so we have been able to close that recommendation.
We feel that FTA has made some good faith efforts and is making
progress in this area.
    It is a very difficult problem to deal with, especially in
the rural States like South Dakota and Idaho because people are
scattered over very large areas. We had some long discussions
with both the Native American Tribes in Coeur D'Alene and in
the Oglala Sioux Nation about how difficult it is to try to
arrange these transit services because the agencies, as you
mentioned in your opening statement, are very underresourced,
have only a couple of people working in them, and the distances
are vast. The weather conditions are harsh. The population is
very impoverished. To see a medical specialist might mean a
trip of 120 miles to Rapid City. So, there are some real
challenges for transit, which makes the issue of coordination
all the more important throughout the country.
    Chairman Johnson. Mr. Rogoff.
    Mr. Rogoff. Mr. Chairman, what I would add to that, it is a
problem. Coordination has been a problem that has been
identified at the Federal level for some time and it is getting
better. We certainly have room to improve.
    We have been successful in boosting the number of Mobility
Managers that bring all these people together and helps
professionalize the effort at the local areas to ensure that we
are getting the maximum value out of all of the taxpayer funded
and, in fact, charitably funded vehicles that are available.
    We still have the problem with stovepiped rules, agency by
agency. Mr. Wise is correct. Medicaid is sort of the big dog in
the room in terms of the dollars they put into it, but,
obviously, they have very strict rules to ensure that the
Medicaid transportation dollar only goes for the hospital or
medical visit and cannot be used for a visit to shopping or to
church, and we need to figure out a way to continue to improve
on the levels of coordination.
    You asked, why is this such a problem? Part of it is
Federal stovepipes, which I think we are doing a good job of
tearing away. Also, we need to recognize that there are local
social service agencies, State Action Councils on Aging. We
have many, multiple different players here, different dollars,
different rules, and we just need to stay about the business,
especially as the rural community becomes more elderly going
forward, to do a better job at tearing away at the stovepipes.
    Chairman Johnson. Senator Crapo.
    Senator Crapo. Thank you, Mr. Chairman. It is evident that
you and I both come from very rural States because you just
used up a couple of my questions.
    [Laughter.]
    Senator Crapo. I will get into them in a little more
detail, though.
    Mr. Rogoff, one of the questions--I think it was in the
Chairman's first question--dealt with the safety and asset
management in the context of dealing with rural communities and
small systems, and I appreciated your answer with regard to the
fact that you are aware of the difficulties that could be
placed on small systems in rural communities by a one-size-
fits-all regulation intended to be focused on a large system.
But I just want to be very clear. Am I understanding you to say
that as you move forward for final rules, that there is the
capacity for a distinction so that we will not face the fact
that our small rural operations will have to face the same
regulatory requirements in terms of scope that the larger
operations will?
    Mr. Rogoff. You have my assurance on that, sir, and as I
said, it would be foolish to do otherwise. You pointed out
yourself, we have operators that run with very few people,
relatively few vehicles, and are, as a result, extremely
efficient in the services that they provide. We definitely are
coming at this from a, ``if it is not broken, do not fix it,''
approach. We do look at this from how are we going to add
value, and we are going to be advised by those very small and
medium-sized operators to ensure that we do it, which is why we
started with an ANPRM, asking these questions, rather than take
a first draft at regulatory requirements, because we really
need to gather the data and get their take on where they think
we can add value.
    Senator Crapo. All right. Thank you. And you also in your
answers got into the issue of, basically, the decision making
on what priorities will be implemented first. I think you
stated that rail would be exclusively focused on at the outset,
but that we were going to get into moving forward with the
remainder of MAP-21 implementation. I guess my question is, how
do you prioritize the remainder of the implementation
requirements, how, and in what order are you proceeding?
    Mr. Rogoff. Sure. Well, let me be clear on what I was
saying about safety. Because of the risk, and we want to take
all of this--bring a risk-based approach to all of our work on
safety, the Administration put forward a bill that focused
principally on rail because that is where the greatest risk is,
and while the legislation goes in a somewhat different
direction involving safety plans from everybody, we will still
be putting the majority of our focus on the risk in high-speed
rail accidents and in right-of-way worker fatalities and things
like that.
    As it relates to prioritizing regulatory products writ
large across all of MAP-21, we started first with the
regulatory rules that would apply to the biggest sums of money
and the largest number of passengers and what would be sort of,
if you will, the most substantive policy changes. We did a lot
of this through instructions on our apportionment notice and
through guidance, because in order to put the 2013 money to
work under the new rules, we did not really have time to go
through a long regulatory process. But, things like our
multibillion-dollar formula program for the entire country, we
wanted to make sure that those went out under the new MAP-21
rules.
    We have had dozens of webinars and consultations with the
transit agencies so they know how to put this to work. Some of
the new authorities that do not apply to either large chunks or
money or a large number of operators have had to wait so that
we can, if you will, capture as much of the thrust of MAP-21 in
the earlier period as we can.
    Senator Crapo. Thank you.
    And, Mr. Wise, in the discussion that you had with the
Chairman--you did have a discussion with the Chairman on the
coordination issues as we move forward, and GAO's report on
coordination highlighted the fact that the total Federal
spending on services for transportation disadvantaged
populations remains unknown because Federal departments did not
separately track spending for roughly two-thirds of the
programs, as identified by GAO. Why is this the case, and why
is there such a problem in tracking this spending?
    Mr. Wise. Thank you, Senator, for the question. The problem
really lies in that these agencies, transportation is not the
major component of what they do. And so as a result, some of
these costs are comingled with other programs and--their
accounting systems are not set up in a way that you can extract
these costs separately and understand what it is costing the
agencies for transportation.
    Just as an example, the Department of Health and Human
Services Medicaid program will reimburse States that provide
Medicaid beneficiaries with bus passes, among other
transportation options, to access eligible medical services.
But it is not clearly delineated within their accounting
system, so we are not able to get a full handle on exactly how
much is being spent for transportation, but it is significant.
I think, as Mr. Rogoff pointed out in his testimony, as the
population continues to age, these things will become more
important in terms of their budgetary impact.
    Senator Crapo. Thank you.
    Mr. Chairman, I do have some more questions, but I will
submit them for the record.
    Chairman Johnson. Thank you.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    First, Mr. Wise, let me commend you and your colleagues for
your always thoughtful and careful analysis, and this is no
exception today. Thank you.
    And Peter Rogoff is someone that I have had the privilege
of working with on the Appropriations Committee, and then as
the Federal Transit Administrator, you have done a superb job,
so much so that Secretary Foxx has named you as the Acting
Under Secretary for Policy, I believe----
    Mr. Rogoff. Correct.
    Senator Reed. ----and I think he has made a very wise
judgment and he is demonstrating his very effective leadership
already, so commend the Secretary, also.
    Just two basic questions. Mr. Rogoff, can you give us some
ideas of what are the impacts, the practical impacts, if we do
not move in a timely fashion to restore funding to the Mass
Transit Account. What is going to happen, and when is it going
to start happening?
    Mr. Rogoff. Well, we have always come at this--I should not
say always, but in recent years, we have determined that
roughly the appropriate balance that we need to maintain in the
Transit Account of the Trust Fund is a billion dollars. On the
Highway side, it is about $4 billion for the Highway Account.
And both the Federal Highway Administration and the Federal
Transit Administration have plans on file on how we would
manage cash in the event of balances falling below that level.
    Within the Federal Transit Administration, it involves
sometimes reimbursing a lower percentage on the dollar. So,
someone is ready for reimbursement for 100 percent of an
expenditure already made and we may only be in a position to
reimburse them for 90 or 80 percent. Another approach may
involve, for those that can handle the float, holding bills
until the time that we have cash in our coffers.
    My concern, and I know the Secretary's concern, is not what
will happen when we actually reach that point, but what happens
in the months leading up to that point when it becomes quite
clear that we are heading into a place where we will not be
able to guarantee full reimbursement, and what does that mean
for either the State highway commissioners or the transit
agencies that need to make capital investment decisions right
in the heart of the construction season, and what dampening
effect will that have on keeping people at work, putting new
people to work, and also making the improvements that our
highway drivers and transit users need, which is why he is
sounding the alarm as he is, making this information available
on our Web site, and starting this dialog now rather than
waiting for the spring and summer to have it.
    Senator Reed. I think that is very appropriate, and I
think, in addition to what you laid out, there are probably
secondary and tertiary effects. One, service interruptions as
they try to cover the capital costs by cutting back on
operations, effects on bond ratings in terms of their ability
to go to the market and fund projects. In addition to the money
you cannot provide, they might not be able to raise adequate
resources. So, this has a really significant cascading effect.
I think that should be noted.
    Mr. Rogoff. Unquestionably, Senator. And I think it is
important to note, some people remember the days when our
agency was called the Urban Mass Transit Administration and
still somehow think of our program as an urban program. The
reality is this. If we had an interruption on our availability
to reimburse transit agencies, the larger transit agencies, the
New Yorks, the Philadelphias, the Chicagos, the Miamis, San
Francisco, certainly, it will be a hardship, but they have
adequate funds from other sources to continue to maintain
operations.
    Look at the other side of the spectrum. Our medium-sized
and rural operators, the Federal dollar is sometimes anywhere
up to 60 to 80 percent of the enterprise, both on the capital
side and the operating side. And if we are not able to
reimburse them in a prompt fashion, that is where we are at
risk of seeing services close their doors.
    Senator Reed. There is another, I think, reality we have to
come to grips with, is that the essence of the Highway Trust
Fund, the funding mechanism is the gasoline tax, as I
understand it.
    Mr. Rogoff. Well, it has been, but it has covered less and
less of the total bill over recent years.
    Senator Reed. And the good news, it is going to be less and
less and less because at the Detroit Auto Show this week, every
car is very efficient. Pick-up trucks are getting lots of
mileage they did not before. But, we are going to have to look
for alternative funding mechanisms, frankly. I think you would
concur?
    Mr. Rogoff. Most recently, the President has spoken about
the opportunities of corporate tax reform to look at a way to
reinvest in our infrastructure, recognizing, in part, that the
gas tax returns less and less for each gallon purchased, based
on the observations you made, that we are using less and less
gasoline, consistent with our goals to reduce our dependence on
oil.
    Senator Reed. Just a final point. When this program was
launched under President Eisenhower, it was a sort of win-win-
win. Building highways, transit systems, was supported by
industry because it helped sell automobiles. It was supported
by the petroleum industry because it helped sell gas, et
cetera. But, the President was wise enough to say, we are going
to pay for it and we are going to be able to expand, and we
cannot contemplate America without the road systems that began
in the Eisenhower administration, the productivity, our
lifestyle. And, we are at a point now where if we do not move
quickly and thoughtfully, we could just begin to slowly, or not
so slowly, unravel our productivity, our lifestyle, our ability
to function.
    Thank you very much, gentlemen.
    Mr. Rogoff. Thank you.
    Chairman Johnson. Senator Johanns.
    Senator Johanns. Thank you, Mr. Chairman, and I thank both
of you for being here today.
    I come from a rural State, too, so I have a couple
questions relative to that, but I did want to follow up on
where Senator Reed was headed. Mr. Rogoff, not asking you to
state a policy position on a preferable way to finance this
area in the future, but I would be curious to know, just in
your mind, what options might be available for Congress to look
at. And, again, I am not asking you to state a preferred
course.
    Mr. Rogoff. Well, there is a wide universe of options,
Senator. As I mentioned earlier, the one that the President has
discussed most recently is the opportunity that corporate tax
reform could present to deal with our infrastructure challenge.
    I would direct you, also, to a lot of measures that have
been taken in the States recently, whether it is Pennsylvania,
Wyoming, Virginia, a variety of mixes of taxes, user fees, done
on a bipartisan basis, in the case of Pennsylvania, done by a
Republican State House, State Senate, and Governor, to restore
their trust funds that includes a mix of fuel tax, taxing oil
at the wholesale level, moving to excise taxes in lieu of per
gallon taxes, doing a variety of measures that--as well as
other unique revenue options that may be specific to that
State.
    There is a wide universe out there, but clearly, we need to
do something and we need to do something soon, considering the
deadlines we are facing.
    Senator Johanns. And let me, if I might, focus on a couple
of issues that would be more rural in nature. I have talked to
transit people back in Nebraska. These would be systems that
are somewhat rural, but having said that, they exist also in
larger metropolitan areas in the State, and they have some
questions about the safety requirements of MAP-21 and FTA.
    Initial FTA language suggests that each subrecipient entity
would be required to have a trained safety officer. According
to people back home, there is also an indication that the State
Department of Transportation would be required to employ State
safety officers who would be responsible for Statewide safety
oversight. Of course, there are costs to that. That drains
money away from other areas. This is a significant issue and it
seems like there is some degree of overlap and duplication
there.
    I am assuming there will not be additional funding,
although if there is, I would appreciate you telling me that.
But, what are your thoughts on these requirements, and I would
like to hear your thoughts on any resources that might be
available to folks back home to deal with this burden.
    Mr. Rogoff. Sure. A couple of thoughts, Senator. First, we
have not leveled a hard and fast requirement on anyone to date.
What we have done is we have put out for notice and comment by
the public concepts through an ANPRM. We have just taken all of
those responses back--I am sure we received many from rural
areas--and we will be taking those to heart as we move forward
with a regulatory regime. So, I do not want to leave the
impression that there is any hard and fast new requirement.
    Indeed, there are resources available for some of this, and
that was one of the breakthroughs of the new safety regime
passed by this Committee, that for at least the State safety
organizations, there is some $22 million to be allocated for
those. Those are principally in the rail area.
    But even at the State DOTs, I have spoken to the State
transportation commissioners a number of times about this. They
have the opportunity to draw for administrative expenses a
percentage of the formula dollars we send to the State. Many of
them do not draw down the maximum percentage. In some ways,
that is a good thing, because that puts more of that money into
direct service at the local level. The flip side is that if
there is not adequate State oversight of the dollars, then we
have challenges in making sure that those dollars are spent
according to law and regulation. We end up having to go in as a
result of Inspector General reports and things like that.
    So, I have actually encouraged a number of the States to
take a look at whether they should draw, not lots, but
additional administrative dollars to do a better job at the
State DOT level. What many of them tell me is that they have a
hiring freeze at the State level, and the way that hiring
freeze is sometimes imposed at the State level is without
regard to whether it is Federal dollars or State dollars, which
hampers their ability to grow their workforce even on someone
else's dime.
    Senator Johanns. OK. I will circle back around, and if
there are additional questions or concerns, can we reach out to
you to----
    Mr. Rogoff. Absolutely. And if it is helpful for us to have
a conference call with your Nebraska operators, we would love
to do it.
    Senator Johanns. OK. Great.
    Mr. Rogoff. And let me just say parenthetically, sir, you
are a rural State, but you are also now a rail car producing
State.
    Senator Johanns. Yes, we sure are.
    Mr. Rogoff. And we just went and celebrated the arrival of
the new Washington Metro cars, the whole new generation, one of
the largest rail car purchases in the United States history,
all manufactured in Lincoln, Nebraska. It is a very good story.
    Senator Johanns. We are very proud of that.
    Mr. Rogoff. Thank you.
    Senator Johanns. Thank you.
    Chairman Johnson. Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    I want to ask you about another part of MAP-21. As you
know, it aims to bring transit assets, the equipment,
facilities, and so on, into a good state of repair, and the law
requires that the FTA create objective standards for measuring
progress toward this goal, and once those standards are in
place, the law requires the recipients of Federal funds to
develop plans for executing on those standards.
    Now, the FTA was supposed to issue objective standards by
October 1 of 2013 and it has not done so yet, and the delay has
put the Massachusetts Department of Transportation in a tight
spot. It is working on an asset management plan, doing the
responsible thing, but it is reluctant to do too much planning
because it still does not know what the FTA's objective
standards will be.
    So, Mr. Rogoff, when will the FTA issue a final rule on
asset management standards?
    Mr. Rogoff. As it relates to a final rule, I will get you a
target date. It may well be here in my book, but let me just
speak more broadly to your observation.
    Transit asset management was a new and welcomed addition to
MAP-21. As I said in my opening statement, we have been
hampered somewhat on the resource front, trying to figure out
what priorities to put the staff on most urgently. Transit
asset management is a very high profile for us and we did just
put out the ANPRM for them to comment on. So, just as I said on
the safety front, we want to take industry comments so we do
not come up with some kind of one-size-fits-all, very rigid
approach. We started with an ANPRM to get the industry's input
on this.
    I will be honest, Senator. I am in fairly regular contact
with Rich Davey at MassDOT and Dr. Beverly Scott, who was just
in town yesterday, at the MBTA. We are working on many fronts
to try to advance things there. They have not voiced that
concern to me. Obviously, things--what we are most critically
interested in there is, as you well know, Governor Patrick and
the legislature have succeeded in now leveraging new dollars
for transportation investment in the Commonwealth and we want
to make sure that they put them to work on the most critical
transit infrastructure needs on the T, of which there are many,
the Red Line especially, but many others, and we will be
working with them.
    You know, Bev Scott is a real leader in this industry,
having done turns in Rhode Island, at MARTA in Atlanta, in
California, and we will be looking to her to help inform our
approach on how transit asset management can work for big
legacy systems like the T.
    Senator Warren. Well, I appreciate that, and I particularly
appreciate your working on the safety standards on the Red
Line. I only live a few blocks from the Red Line and we use it.
So, I am grateful for that, but I really do want to emphasize,
there is a deadline built in. It was supposed to have been
October 1, which means all of the question about pulling in all
of the outside. You have got to plan against a deadline, and so
I just am hopeful that we get this done quickly. I know that
you are committed to improving the equipment and making sure we
meet the highest safety standards. I know that is also true for
the MBTA. So, thank you, but I am really going to keep a thumb
in your back on this one.
    Mr. Rogoff. And that is fine. I welcome it. I think,
importantly--I want to be careful on how I phrase this--we have
a number of statutory deadlines. I am not sure they were
workable and reasonable when they were put in in the first
place. We take them as very strong indications from the
Committee on the priority they put against this. But I think,
as you have also heard across the dais, they want us to get
industry input before we start writing rules----
    Senator Warren. Fair enough.
    Mr. Rogoff. ----and we need to strike that balance.
    Senator Warren. Fair enough. Now, if I can, I want to ask
you about one other thing, and that is, broadly speaking,
Congress can distribute highway and transit money in two ways.
It can distribute money through a formula, which spells out
exactly how a particular State and local agency will receive
money, or it can leave the distribution of the money at the
discretion of the Department of Transportation and then provide
grants to different State and local agencies based on a
competitive process.
    Historically in transportation funding bills, Congress has
distributed about 80 percent of the money through formulas and
about 20 percent as a discretionary matter. But in MAP-21, the
number went up to 92 percent through formula, leaving you with
very little discretionary money. So, we saw a real move away
from discretionary spending.
    So, Mr. Rogoff, I just want to ask, and I have to ask
briefly because I am running out of time here, do you think the
decrease in discretionary funding has hurt the FTA's ability to
fund worthwhile projects?
    Mr. Rogoff. Well, I think it is a little too early to tell
that, but I can speak to the problems that have surfaced for
the absence of those discretionary dollars. Over 3 years, we
were very successful in competing the bus discretionary dollars
that we had for bus operators, not only just bus-only
operators, but also larger systems that do bus and rail
operations. We put out over $2.5 billion over those 3 years and
it was done without earmarks. It was done strictly on a merit-
based system and we felt like we did a very good job.
    The reduction in, especially on the bus operator side, the
loss of discretionary dollars and redistributing some of those
dollars--not all of those dollars, and that has been a source
of considerable concern by the bus-only operators who took a
financial hit, in their view, through MAP-21--the loss of the
discretionary money has meant that when they have large single
investments, like it is time to replace a sizable part of their
bus fleet or build a new maintenance facility, they do not get
a sufficient flow of formula dollars to be able to cobble
together enough money to make that significant sizable
investment, and that is what the discretionary program was for,
and that may be something that this Committee wants to look at
anew as they do reauthorization again.
    Senator Warren. OK. Thank you very much, because we all
want to see the money spent in the most effective way, and
whether that means a little more discretion for the agency may
accomplish that is something we certainly should be taking a
look at.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Tester.
    Senator Tester. Yes, thank you, Mr. Chairman.
    I want to thank both members for their testimony today. The
rural aspect has been mentioned several times, and so I am
going to mention it, too.
    Mr. Rogoff. Awesome.
    Senator Tester. Very quickly, when it comes to the National
Public Transportation Safety Plan, I think the key is making
sure we do not have a one-size-fits-all and making sure you are
getting input from rural transit systems. All I need is a
commitment from you to continue to do that.
    Mr. Rogoff. Absolutely.
    Senator Tester. That is it. Good enough.
    [Laughter.]
    Senator Tester. I want to talk about Tribal transit
programs. You mentioned this in your testimony. I think
Congress has made some significant investments in Tribal
transit through MAP-21. They have doubled some funds available
for the Tribal Transit Program. They continue to build
transportation infrastructure on Tribal lands. It is very
important, whether it is for health care, education, economic
opportunity, whatever it might be. Beyond the investments made
in MAP-21, I think it is critical that Tribes continue to
receive technical assistance and support from the FTA to grow
and establish transit systems. You have done some outreach at
FTA this fall and I look forward to learning about future
efforts.
    I just need to have you share your perspective, your
thoughts, on the success of the FTA's outreach so far in Tribal
America and what the FTA intends to do to continue to build on
success.
    Mr. Rogoff. Well, Mr. Tester, the Tribal Program was
effectively doubled under MAP-21.
    Senator Tester. Correct.
    Mr. Rogoff. However, we moved from a $15 million--it sort
of follows up on what Senator Warren was saying. We move from a
$15 million discretionary program to a $30 million program of
which $25 million was by formula and only $5 million was
discretionary.
    Senator Tester. Right.
    Mr. Rogoff. This left us with the charge of developing a
fair formula that we could put out to the Tribes, and I will be
honest, most of the outreach recently with the Tribal community
has been around building that formula and informing them what
amount of money they could expect.
    Capacity building in Tribal transit is absolutely critical.
We spend a great deal of time trying to work with the Tribes to
make them to be eligible grantees, to spend the dollars the
right way. Especially given the critical mobility needs, that
is absolutely a lifeline to the opportunities for employment
for many of those Tribes.
    So, we are doing more and would expect to do more in the
future once we have sort of nailed down the funding stream they
could expect through this formula. We are concerned, quite
frankly, that one of the outgrowths of the formula is some of
the payments that sort of spit out from that formula are quite
low, not--so, while Tribes are sort of given a guaranteed level
of assistance, it may not be a sufficient sum to really do
something meaningful in terms of launching and supporting a
service on an ongoing basis, which may again be something that
the Committee wants to look at going forward.
    But, absolutely, we want to make sure that the dollars we
are putting out there are spent wisely. I think we will have a
new challenge. When we had all of these dollars on a
discretionary basis, frankly, we could make a judgment call as
to whether an individual Tribe was ready to receive and put
these funds to good use. Now that we are distributing them all
by formula, we will certainly work to ensure that that is the
case, but we must put that money against them, because they are
entitled to it by formula, while we work to get them to that
capable place and that is going to be an added challenge.
    Senator Tester. Yes. I thank you, and you answered my
second question with that answer, so I want to thank you very
much. I mean, I just think you get it. I mean, the travel
infrastructure is critical important. Poverty is rampant in
rural Tribes, at least, and we need to figure out ways to lift
them out of poverty and I think this infrastructure is a part
of it.
    Mr. Rogoff. Absolutely.
    Senator Tester. You, according to Senator Reed, are up for
Under Secretary for Policy.
    Mr. Rogoff. I will be moved at the end of next week to be
the Acting Under Secretary for Policy, yes, sir.
    Senator Tester. OK. So, I do not want you to think this is
a confirmation hearing in that regard, but I do want to know,
since we are talking about policy, what role toll roads are
going to be playing in the future of the Highway
Administration.
    Mr. Rogoff. Well, that is a very uncontroversial question.
Thanks for it.
    [Laughter.]
    Senator Tester. I am only here to help.
    [Laughter.]
    Mr. Rogoff. Yes. Right. Senator, I feel comfortable
answering this as the Federal Transit Administrator because
tolling has been an important source of funding for a number of
transit expansions. There is a rich debate that we are going to
need to have as a Nation over the issue of the concept that
toll payers have paid for the road once and, therefore, should
not pay again, which is sort of one argument, the other
argument being that the maintenance and upkeep of that toll
road requires more in continued investment, which the toll
payers probably have not covered over the life of the
structure.
    And, I think, importantly, tolls are clearly part of the
mix, and somewhat consistent with the answer I gave to Senator
Johanns, we need to look at every available revenue opportunity
and look at both the fairness issues, but also what revenues
they may present to us in terms of solving this Trust Fund
problem.
    Senator Johanns. Yes, and I thank you for that answer and I
am going to let it go for a second, but I think it is really
important from my perspective, being part of the legislative
branch in this business, that we have the debate before you
enact the policy. I just think it is really important.
    Mr. Rogoff. Well, there are Federal strictures in terms of
what is and is not permissible on the toll road funds.
    Senator Tester. I have got you, and I will just tell you
this so you know. I mean, I think if the Department gets out in
front in advocating, I think that is a problem. But for others
on this Committee, they might think that is a good idea, too.
So, that is why we need to have the debate.
    Mr. Rogoff. No, I hear you, Senator. What I meant by that
is there are Federal statutory rules that limit the
Department's discretion in this area, and if something was
going to be done dramatic on the tolling front, obviously, we
would need to have a dialog with Congress, which we would have
anyway, even if we had the authority ourselves.
    Senator Tester. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman, and thank you all
for your appearance today and your testimony.
    I, too, come from a very rural State of West Virginia and
we depend an awful lot on mass transit, and especially our bus
transportation, and we do have some train transportation in our
Eastern panhandle which we are very much concerned about, with
the MARC train over there----
    Mr. Rogoff. Right.
    Senator Manchin. ----and, hopefully, you all would be
attentive to that.
    With that being said, recently, I have heard from a number
of the transit authorities in my State that the distribution of
grant dollars from the FTA has slowed down significantly. What
used to take a couple of months is taking more than a year now.
Can you identify any specific causes for the increase of delay,
and maybe with us on the verge of having our first budget, that
might help relieve that some?
    Mr. Rogoff. Well, Senator, I would like to work with your
office and understand which particular pots of money they are
referring to because it is a little perplexing to me. I am not
familiar with that dynamic, other than the fact--other than the
dynamic that you just cited----
    Senator Manchin. Almost universal from my----
    Mr. Rogoff. and that is that we are waiting--we have to,
obviously, await a 2014 final appropriation----
    Senator Manchin. Right. I understand that.
    Mr. Rogoff. ----before we apportion that 2014 budget.
    Senator Manchin. But this is in the past. They have been
telling me--we checked with everybody before I came to the
hearing and all of them have been having the long delays in
getting any grant monies whatsoever. But we will get with you,
sir, after this if you----
    Mr. Rogoff. I would appreciate it.
    Senator Manchin. OK.
    Mr. Rogoff. I think the issue here may be there have been
years when we have gotten a CR for a longer period of time. As
you know, some of the CRs stretched well into, like, March and
April in the most recent year, and, therefore, we did a partial
apportionment of funds. We did not do that this year in the
hope and expectation, once the budget deal was announced, that
we would be getting a budget in January, and it looks like we
will be----
    Senator Manchin. Yes.
    Mr. Rogoff. ----in which case we will be getting out an
apportionment notice very quickly.
    Senator Manchin. Let me----
    Mr. Rogoff. But if there is a larger problem, I would like
to know about it.
    Senator Manchin. We will. We will get right with you on
that, then, sir. Thank you.
    And also on that, you know, nationally, 53 percent of the
public transportation is by bus.
    Mr. Rogoff. Absolutely.
    Senator Manchin. But only 10 percent of the money goes
toward bus transportation. Do you think that is a
proportionate, proper mix?
    Mr. Rogoff. Well, I think when you look at that issue, you
also have to be cognizant of where the costs are. There are
considerably lower costs to operate a bus system versus
operating a rail system. As I said in my opening statement, we
are under-investing nationally both in the bus infrastructure
and in the rail infrastructure----
    Senator Manchin. But does it not seem like 10 percent to 90
percent is disproportionate there as far as the mass
transportation, when you are moving 53 percent of the people in
America?
    Mr. Rogoff. I--I do not----
    Senator Manchin. I would hope so.
    Mr. Rogoff. ----want to be baited into a formula fight,
Senator, but----
    [Laughter.]
    Senator Manchin. OK.
    Mr. Rogoff. ----I take your point. I have often reminded
people, as I did just yesterday at the Transportation Research
Board, of the very point that you make, and that is that more
than half of the transit trips in America is still taken by
bus----
    Senator Manchin. Maybe we can have those people come to a
meeting, Mr. Chairman, at a future time, if it might be more
helpful to us in rural States, sir.
    If I can go on to this, on transportation fuel. I have
often said, when I was Governor of the State of West Virginia
and talking in the National Governors Association, we were
looking at different ways to maximize our fuel efficiency and
taking advantage of what we have in our country. With the
abundance of natural gas coming on in our State and our country
right now, I thought that you all could really lead the charge
on giving us the incentives to change toward natural gas-
powered vehicles. The uptick from that is that going from
diesel to natural gas-propelled vehicle is a little bit
expensive and they are just kind of staying where they are
unless they get that incentive.
    And here is the thing that it would lead to, sir. We looked
at this, too. If you take that lead and we follow up with our
State, with our school transportation, all of our school buses,
every State could transform its commercial, what we call its
commercial vehicular traffic away from petroleum into natural
gas with you all taking the lead on mass transit. We are going
in with public transportation, as far as our schoolchildren.
And then we follow right up with our State vehicles and our
State road vehicles.
    The reason I say that is it does not have to transform
every utility or every infrastructure as far as gas station in
my State or in the country. Those are all bulk stations. Most
of the gas companies will convert those free if they get any
type of a contract. No cost of conversion. The only cost we
have is that first uptick, going to a natural gas-powered. If
you could look at that differently, it would help us. We could
reduce about 20 to 25 percent, I am told, our dependency on
petroleum.
    Mr. Rogoff. Well, a couple of thoughts, Senator. First, I
think the agency has historically leaned very far forward to
try to promote the development of natural gas buses, and if you
look across how we spent our research dollars, we have been
sort of on the cutting edge of----
    Senator Manchin. Right.
    Mr. Rogoff. So, now, we are actually on to the next
generation in terms of trying to--you know, natural gas buses
are very much embedded in the fleet now. I believe every bus
now operating in the LACMTA system in Los Angeles is a natural
gas bus.
    You are right that there is an added investment cost going
in, but----
    Senator Manchin. After you get there, you are OK.
    Mr. Rogoff. ----it clearly pays itself back over the 12
years of the natural life of the bus, including, often, the
cost of the fueling infrastructure. So, yes, we can.
    Now, you have mentioned some other ideas on what we can do
with school buses. We obviously do not play in that space----
    Senator Manchin. No. I am saying, you set the tone. The
Federal Government setting the tone, that if we all started
looking at our mass transportation first coming from the
Federal grants that we get----
    Mr. Rogoff. Mm-hmm.
    Senator Manchin. ----and there was an incentive for us to
convert, I will assure you that States will start following. It
gives them more of an impetus to do that. And if they do that,
and if 50 States were able to do that, we would reduce, I am
told, around 20 to 25 percent of our dependency. And,
basically, all of these are done locally, so county by county.
You know, they run day--you can fill up a natural gas
commercial vehicle and run all day in a county.
    Mr. Rogoff. Right.
    Senator Manchin. You do not have to worry about, ``can I
find a filling station near there?''
    Mr. Rogoff. Right.
    Senator Manchin. They are running out of bulk stations. It
is the most doable thing that we have, to convert and remove
about 25 percent of our dependency----
    Mr. Rogoff. Well, we can----
    Senator Manchin. ----over that 5-year period.
    Mr. Rogoff. We have had periodically in the program
percentage incentives, which is to say----
    Senator Manchin. Sure.
    Mr. Rogoff. ----a lower local match in order to go with a
cleaner fuel bus. I am not sure that that was the strongest and
most effective impetus to make it happen. Part of this is
whether we, as a matter of Federal policy, are going to try to
dictate those local decisions. You know, that is something I
think the Committee should debate.
    Senator Manchin. I am not saying dictate. Basically, the
only thing I am saying is if----
    Mr. Rogoff. Incentivize them.
    Senator Manchin. You are giving us X-amount of dollars to
buy a diesel bus, OK.
    Mr. Rogoff. Right.
    Senator Manchin. Let us say that the same incentive--you
give us the same amount of money to buy a natural gas bus. Let
us make the decision.
    Mr. Rogoff. We do give them the same. I mean, the vast
majority of the bus dollars for purchase are done by formula.
We have had a separate discretionary--it is converted to what
is called the Low and No Emissions Bus Program, but heretofore,
we have had a Clean Fuels Program where we have bought a lot of
natural gas buses as well as sort of the first earliest
generations of electric buses.
    Senator Manchin. Sure.
    Mr. Rogoff. So, those incentives have been there, and I do
believe we have advanced--we have made those vehicles
commercially viable through those grants and building the
critical mass of buys to make the manufacturers go into that
space. And I think if Huntington, West Virginia, wanted to buy
a natural gas bus and used their formula dollars for that
versus a diesel bus, they are both eligible expenses and we do
not blink either way.
    Senator Manchin. OK. I will work with you on that. I am way
over my time, but I would like to work with you on this.
    Mr. Rogoff. Absolutely.
    Senator Manchin. It has great potential, and you all--we
could lead the charge here.
    Mr. Rogoff. I think there is also an opportunity to sit
with the Energy Department at the same time when we do that for
those issues that you talked about, conversion of stations,
conversions of school buses----
    Senator Manchin. The conversions will be done.
    Mr. Rogoff. Mm-hmm.
    Senator Manchin. The private sector will come in and do the
conversions at no cost to the taxpayers, none. They are going
to have a 10-year return, now. They want----
    Mr. Rogoff. Right.
    Senator Manchin. And that is fine. We can work those
details out----
    Mr. Rogoff. Well, on the bus front, we are looking for a
12-year return, so----
    Senator Manchin. OK. We can mirror those two up.
    Mr. Rogoff. OK. I look forward to it.
    Senator Manchin. Thank you, sir.
    Mr. Rogoff. Yes, sir.
    Chairman Johnson. I am told that Senator Schumer is on his
way, so Senator Menendez, take your time.
    [Laughter.]
    Senator Menendez. OK. I am happy to hear that, Mr.
Chairman, and I would like to ask that a statement I have be
included in the record.
    Administrator, first, let me say I welcome my colleague
from West Virginia's interest in mass transit. We need more
advocates. As someone who is one of the leaders of the fight
here on mass transit and all of its iterations, I can tell you,
we can use all the help we can get because it is constantly a
challenge, and that is why I appreciate hearing it, because it
is constantly a challenge to understand the importance of mass
transit in our funding formula, as we worked hard last year to
get MAP-21 to ratchet it up a little bit, but we are still
nowhere near where we should be for the demands that there are,
whether they be light rail or bus or whatever.
    And I just want to compliment you, Administrator, for a
very, I think, good job in the midst of a lot of challenges,
and I appreciate your approach to the whole effort nationally
on mass transit.
    In that regard, let me say that in MAP-21, I worked to
create a new transit-oriented development planning pilot
program to provide grants for communities to create mixed-use
walkable developments around federally supported transit lines,
and I sent a letter to FTA this December with seven of my
colleagues, including three on this Committee--Senators
Schumer, Warner, and Hagan--asking for this program to be
expedited. To date, the FTA has not made an announcement of
funds for this program, which is authorized at $10 million in
fiscal year 2013 and 2014. And given the short timeframe of
MAP-21, it is important that we get this program underway so we
have results to evaluate sooner rather than later.
    So, why has the FTA not yet announced the availability of
funding for this program and what time line do you have for
making this announcement?
    Mr. Rogoff. Senator, we are well aware of the program and
cognizant of the Committee Members' interest, and most notably
yours, as a champion for the program. We, quite frankly, in our
prioritization scheme--I was asked earlier by Senator Crapo,
what were we going to prioritize given all of the new
requirements of MAP-21. As I said in my opening statement, MAP-
21 for transit was, like, 7 years of policy in a 2-year bill
and we had to prioritize what we were going to take on in what
order.
    As it relates to the TOD Development Program, we thought it
wise, not just from our own selfish administrative
responsibilities, but also for the opportunities for the
communities to come in, to get 2 years of money and then
compete 2 years of money. So, we will have a competition for
the full $20 million rather than $10 million 1 year and $10
million the next. We thought that would be both efficient, also
increase the opportunities for a diversity of players to come
in at a more meaningful level of money.
    Our goal is to start that process and get notices out the
door in the spring and compete it this summer. I apologize for
the delay in getting to this. It is stacked up with a lot of
other new MAP-21 requirements, most notably the safety
requirements, which we very much welcome the changes to the
formula programs, which we obviously had to put out on the
street very rapidly.
    Senator Menendez. Well, I appreciate that, and I realize
what we did in MAP-21, because I was working with the Chair as
the Subcommittee Chair. We put a lot of things in there. But,
to the extent that we have a pilot program and resources
dedicated for it, what I would hate to see is that the pilot
program does not ever get to fruition because we have waited
too late----
    Mr. Rogoff. No. That is not going to happen. It is strictly
a matter of time.
    Senator Menendez. All right. Next is, FTA recently
announced the next round of Sandy recovery transit funding, $3
billion for resiliency efforts. And according to your
announcement, this funding is, quote, ``intended to protect
public transportation infrastructure that has been repaired or
rebuilt after Hurricane Sandy or that is at a risk of being
damaged or destroyed by a future natural disaster.'' It also
goes on to state that you may consider geographic diversity and
diversity between transit modes when making these awards.
    My question is, how high of a priority will FTA place on
protecting assets that were hardest hit by Hurricane Sandy, and
how are you going to balance the considerations of geographic
and model diversity versus protecting the areas most devastated
by Hurricane Sandy?
    Mr. Rogoff. Well, I have said before, at this table, in
fact, but in other venues, that our highest priority in
allocating these funds is going to be protecting the existing
transit infrastructure that serves millions of passengers each
day. Those systems, those existing rail lines, have, in many
cases, flooded multiple times. As you know, some of the
infrastructures that flooded under Hurricane Sandy had flooded
just 1 year earlier under Hurricane Irene. And the President in
requesting this resiliency funding made clear that he puts a
strong priority on ensuring that the taxpayers will not, going
forward, have to pay to restore the infrastructure a second,
third, or a fourth time. That is going to be our priority as we
look at it.
    We are going to be working carefully, and we have
conferences set up with all the likely applicants, to talk
about looking at a comprehensive plan and seeing how they are
going to protect the most vulnerable elements of the system and
look at it from the perspective of a system, which is to say,
we are not very interested in an investment that will ensure
that we have protected one portion of a rail line if, in fact,
we are just going to have some other portion of the rail line
that also is serving 80 percent of the same traffic washed out.
That is not going to maintain mobility in the face of the next
disaster.
    So, those are going to be our priorities going in. It is
hard for me to say now, until we get all the applications in,
how some of the other factors like geographic diversity and
other things will play out. I think we have put out a good
notice that takes into account all of the critical factors that
we need to look at, and when we get the applications in, we
will then have to rack and stack them, make sure that the
investments are cost beneficial, capture the most critical
infrastructure on both sides of the river, and also make sure
that we are fulfilling the President's commitment to ensuring
that we do not pay a second and third and fourth time to
restore it.
    Senator Menendez. Well, I appreciate that. I mean, as
someone who, along with Senator Schumer, led the fight for the
Sandy money and particularly to make sure that the
transportation elements of it were part of it, I certainly
believe that the consequences of systems moving large numbers
of Americans and who have a history of constant challenges due
to flooding and weather-related issues make a highest priority
use, just simply on the number of people being serviced and the
reality that we have had repetitive loss. So, we want to avoid
the repetitive loss for the taxpayers. We want to maximize the
number of Americans who are using a transit system. So, while
there is obviously a whole host of challenges, I look forward
to that being the reality.
    Finally, if I may, Mr. Chairman, Mr. Wise, with reference
to bus rapid transit projects, how do you see the role of the
BRT playing in the future of U.S. transit services? These
projects are very often appealing as a lower-cost, more
flexible transit option, but they lack some of the service
characteristics and economic development potential of others.
    Mr. Wise. Yes to both of those, Senator. Thank you. In the
work we did for the Committee several years ago on BRT, I think
the results of that are promising, but there are constraints,
as you mentioned. A bus is not a train and some people view it
that way. That said, given the funding environment that we are
in right now and will be in for the foreseeable future, I think
many see BRT as a good alternative and one that is much more
feasible to implement than rail, which tends to be relatively
more expensive.
    Now, that said, there are characteristics of BRT that are
being implemented that make it stand apart from regular buses.
In the systems that we visited--Seattle, Eugene, a few other
places--there are nicer, newer, more brightly painted buses.
The bus stops will be nicer than regular bus stops. Passengers
can buy tickets from special machines. So, there are some
similarities to rail travel.
    Probably the poster child for the best BRT system in the
world is in Bogota, Colombia, where it looks very much like a
train. In fact, you have to look closely to see the difference.
The stations are very ornate, similar to very nice rail
stations. You do not really see that here, and the dedicated
guideways are also kind of a mixed bag. There are some where
they have more dedicated guideways than others, and some of
that, again, is cost.
    I recall that, when we visited the system in Eugene-
Springfield, Oregon, there were a couple areas where it is just
impossible to have a dedicated guideway, due to a complex
intersection. Most of the people that we talked to in the
different systems see promise with BRT. It is much less
expensive and much quicker to implement, compared to rail and
they have generally encouraged economic development.
    The BRT line in Cleveland, Ohio, is a good example.
Officials there told us they have seen $4 to $5 billion worth
of development along that Euclid Avenue corridor that leads
from downtown up to the Cleveland Clinic area. Another BRT line
in Kansas City in a rather depressed area not too far from
downtown Kansas City, the Troost System there has brought some
additional development and obtained some additional urban
development, grants, with the hope that the BRT was going to
help spur development in that area.
    We also are seeing potential development here in Montgomery
County, MD, which is looking to implement a fairly extensive
bus rapid transit system along the Interstate-270 corridor. I
think a lot of jurisdictions are seeing real promise in bus
rapid transit.
    Senator Menendez. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Schumer.
    Senator Schumer. Thank you, Mr. Chairman, and I want to
welcome you, Mr. Wise, and congratulate you, Mr. Rogoff, on
your promotion. I know you from your days here. I know you are
filling large shoes, because Polly Trottenberg, your
predecessor----
    Mr. Rogoff. Very large shoes.
    Senator Schumer. ----worked for me for 9 years and now is
going on to become DOT Commissioner in New York City. I know
that office well, my wife having served there, and I know she
will do a great job. But, I am glad you are there.
    Mr. Rogoff. Thank you, sir.
    Senator Schumer. We feel very good about that.
    I have a few questions, first regarding capital grants
under 5309. I know that under MAP-21, we tried to streamline
and accelerate project delivery on both New Starts and Small
Starts. I know that is working well, so I congratulate you on
that.
    I have a couple of specifics here in terms of BRT. First,
Albany, our Capital District Transportation Authority is
becoming a leader in BRT. Albany is growing. They have a lot of
economic activity and they are a city--they have three sort of
core cities, Troy, Schenectady, and Albany, and all the people
living amidst those, so it is made for--it has a metropolitan
area of a little over a million people. It is not large enough
for a subway system, a rail system, but bus rapid transit, it
is made for it. It fits to a T.
    I helped them get a grant to plan their BRT. They have been
working with FTA regional offices in New York. They are poised
to apply for an admission to the Small Starts Program. They are
already working really well on this. They have a Red Line
already from downtown Albany to downtown Schenectady. They have
planned two more, one to go to Troy and one to go out to the
University at Albany. It is great. So, are you familiar with
the plan in Albany at all?
    Mr. Rogoff. I am, and I have spoken with people at CDTA. We
were pleased to help give them that planning grant, and you are
right, they are well along in their development. I think the
good news here, really, as it relates to this project and all
of the interested new entrants to the New Starts and Small
Starts Program, is the conference agreement that is currently
pending on the floor.
    Senator Schumer. Right.
    Mr. Rogoff. You will recall, last year, the combination of
the Continuing Resolution and then the sequester below that
left funding for the New Starts and Small Starts Program in a
place where we could not even fulfill our existing obligations
that we had already signed up. The appropriations bill
currently pending before you is, through the combination of
unobligated balances and new appropriations, gets us to our
request level----
    Senator Schumer. Right.
    Mr. Rogoff. ----which means we are going to be about the
business--we are back in the business of looking at----
    Senator Schumer. Good.
    Mr. Rogoff. ----new folks to admit to----
    Senator Schumer. Can I have your commitment, you will work
personally with CDTA and do everything you can to see that it
is admitted to the Small Starts Program?
    Mr. Rogoff. Sure. When they make the requisite request, we
see no showstoppers right now----
    Senator Schumer. Great.
    Mr. Rogoff. ----to them coming in and having a successful
project.
    Senator Schumer. Great. Now, our second one is Buffalo,
similar. Buffalo has experimented with different kinds of
transit, particularly the Main Street Project, which was a
flop----
    Mr. Rogoff. Yes.
    Senator Schumer. ----and we are helping them undo that
right now, 30 years later. But they, too, are made for this
type of system. Again, similar size, about a million--a little
more than a million and a half people in the metropolitan area.
They want to study an extension of the Buffalo Transit System
out to Amherst, which is an Eastern suburb and where the
University of Buffalo is, and now University of Buffalo is in
the Medical Corridor, so it is a perfect situation. Again, can
I have your commitment to help them get into the Small Starts
Program, as well?
    Mr. Rogoff. Yes, we will look at their applications as they
come in, but here again, I think it is fair to say that the
NFTA has taken some time to figure out what it is they want to
do.
    Senator Schumer. Yes.
    Mr. Rogoff. And, I think, Mr. Wise just pointed out some of
the benefits we can really see when we do bus rapid transit the
right way----
    Senator Schumer. Yes.
    Mr. Rogoff. ----which is to say, you do all of the full
investments, the unique stations, the unique vehicles, level
boarding, signal priority, which means they almost always get a
green light when they hit a signal. You could really move quite
a number of people at a very affordable cost compared to rail.
    Senator Schumer. Right.
    Mr. Rogoff. So, we welcome NFTA----
    Senator Schumer. Do you see any barriers in the way there?
    Mr. Rogoff. Absolutely--well, there are, as pointed out,
there are some geometric hurdles you cannot always overcome,
but there are also great opportunities. And I think whenever
you connect large employers like the University and the health
center, those are the kind of segments that we see great
success in servicing like this.
    Senator Schumer. Great. Next, I would like to go to
Gateway. As you know, New Starts has been really helpful for
both the Second Avenue Subway and East Side Access, two of the
largest projects in the country that we have supported. Now,
there is another being developed on the Western end, the sort
of mirror image of East Side Access, is Amtrak's Gateway
Program to build--and I am sure Bob is very interested in this,
as well--to build two new tunnels under the Hudson River into
Manhattan. The current tunnels are 100 years old. They are not
floodproof. They are at full capacity. It is not just a
passenger rail project, but a critical transit project. New
Jersey Transit runs two-thirds of the trains bringing workers
from New Jersey to Manhattan. We had ARC--we had a fight with
Governor Christie over that--and they had Federal funding. So,
now we are going back at it because the need for tunnels is
crucial. So, I had three questions on the Gateway program.
First, do you agree it is a critical passenger rail and transit
project? Second, do you believe it could be a candidate for the
New Starts Program? And, third, do you need legislative
authority to admit Gateway into the New Starts Program?
    Mr. Rogoff. Let me take those in order. You correctly point
out, we have had a very painful history in trying to get the
necessary tunneling capacity under the Hudson, and the tunnels
that are currently serving an extraordinary number of
passengers, both on the Amtrak side and the New Jersey Transit
side, are----
    Senator Menendez. That is very diplomatic, Mr. Chairman,
the ``painful history.''
    Mr. Rogoff. Those tunnels are over 100 years old. Your
first question, do I agree that it is an essential investment,
we absolutely must do something about those. I believe we are
approaching 110-year-old tunnels.
    Senator Schumer. Right.
    Mr. Rogoff. They not only constrain capacity, but at a
certain point, they will become a real safety risk.
    Senator Schumer. Right.
    Mr. Rogoff. And, you know, think about the upheaval that
will result if we were to lose that capacity all of a sudden.
    Senator Schumer. Right.
    Mr. Rogoff. Could it be a candidate for the New Starts
Program? Yes, it could. What we would need is a local project
sponsor to come forward and do all the development work, and
most importantly, come up with the necessary local match.
    Senator Schumer. Yes.
    Mr. Rogoff. And your final question, do I need special
legislation to help make that happen, we will take a round turn
on that, but I do not think so.
    Senator Schumer. Good.
    Mr. Rogoff. I think--I mean, obviously, the entire program
expires at the end of the year, but I think the question you
may be alluding to is how do we deal with a New Start Project
for which Amtrak is a participant.
    Senator Schumer. Yes.
    Mr. Rogoff. I do not know if I need new legislation for
that. I think that----
    Senator Schumer. Would you check and get back to us?
    Mr. Rogoff. You know, we can. I know we have had Amtrak do
some necessary investments even as part of East Side Access.
They are responsible for the Harold Interlocking, which is a
very large portion of that project. So, there may be a way of
doing this without special legislation, but if it is needed, we
will certainly call it to your attention.
    Senator Schumer. OK. You do not think it will be.
    Mr. Rogoff. I do not think so on its face, but I would want
to go and dig into----
    Senator Schumer. Could you get back to me in writing----
    Mr. Rogoff. Absolutely.
    Senator Schumer. ----in a couple of days on that?
    Mr. Rogoff. Sure.
    Senator Schumer. Great. Finally, just the Montague Tunnel.
As you know, we have a real interest in restoring this tunnel.
Give me a status report on how it is going, how the repair is
going.
    Mr. Rogoff. My understanding is things are going along
well. This is one of the benefits that you get from closing the
entire facility, is you do not have to worry about the safety
risks posed by the workers. You have the ability to put all
kinds of equipment in the tunnel because you do not have to
move trains through it at the same time. I have heard nothing
to the effect that they are off schedule or over-budget, and
indeed, in some of these tunnels, we are making through what we
call our local resiliency funding some investments to just
allow them to move the utilities to the roof of the tunnel, so
should we have flooding again, we will not lose all the
signaling capacity and all the cabling and stuff.
    Senator Schumer. So, it is full speed ahead.
    Mr. Rogoff. Yes, sir.
    Senator Schumer. Thank you, Mr. Chairman.
    Chairman Johnson. I want to thank our witnesses for your
testimony today. This hearing is adjourned.
    [Whereupon, at 11:31 a.m., the hearing was adjourned.]
    [Prepared statements and responses to written questions
supplied for the record follow:]
                 PREPARED STATEMENT OF PETER M. ROGOFF
     Administrator, Federal Transit Administration, Department of
                             Transportation
                            January 16, 2014
    Mr. Chairman, Ranking Member Crapo, and Members of the Committee:
Thank you for inviting me to appear before you today to report on the
Federal Transit Administration's (FTA) progress toward implementing
public transportation assistance programs under the Moving Ahead for
Progress in the 21st Century Act, known as MAP-21. This 2-year
reauthorization codifies some of President Obama's highest priorities
for enhancing the safety of public transportation, strengthening our
Nation's transportation infrastructure, and streamlining Government to
serve taxpayers' needs more efficiently.
    I want to thank the Committee for its support in passing MAP-21,
which has offered an opportunity for us to work together to support
transit systems across the country at a time when national ridership is
on track to exceed 10 billion trips annually for the seventh year in a
row. Through investment in public transportation, we spur new economic
development to help build strong communities in cities, suburbs, and
rural areas alike.
Progress Made Despite Fiscal Challenges
    MAP-21, which took effect on October 1, 2012, authorizes $10.6
billion in Fiscal Year (FY) 2013 and $10.7 billion in FY2014 for public
transportation. FTA has made significant progress in implementing key
provisions and providing guidance to States, metropolitan planning
organizations and transit agencies. We have an active and engaged
legislative implementation team and an aggressive timetable in place
that helps to ensure that the American people can reap the benefits
associated with investing in public transportation services that
improve transportation equity, provide access to jobs and services,
offer an efficient alternative to congested urban traffic, and
stimulate economic development in cities and communities throughout the
Nation.
    I discuss, below, several areas where FTA has made real progress to
implement MAP-21. However, I fully recognize that much work and many
challenges lie ahead. Chief among these challenges are significant
annual funding constraints and the potential insolvency of the Mass
Transit Account of the Highway Trust Fund.
    The funding constraints imposed by the full FY2013 and the partial
FY2014 continuing resolutions, coupled with cuts imposed by
sequestration--including a $5 million cut in our administrative
budget--have hampered our ability to move implementation forward at an
even more rapid pace. The cuts have, for instance, affected our ability
to implement significant new safety authority and reduced our ability
to conduct outreach and training with stakeholders. Every budget
request under my stewardship has sought additional funding to allow for
additional staffing at FTA to better address our core responsibilities.
Congress has yet to provide those resources. Moreover, in FY2013, FTA
had more than 30 New Starts projects in the pipeline, but since that
time, FTA has been unable to make new funding commitments to any of
those projects for the first time in roughly 20 years. Consequently,
for the first time, FTA was unable to keep its financial end of the
bargain, cutting payments owed to communities with projects already
under way, which potentially raises local costs as project sponsors and
local governments seek to make up for the Federal Government's
shortfall.
    With respect to the Mass Transit Account of the Highway Trust Fund,
estimates of the account's cash balance at the time MAP-21 was enacted
were assumed to be sufficient through FY2014. We have reason for
concern as to whether this will be the case going forward. The U.S.
Departments of Transportation (DOT) and Treasury are currently in the
process of updating program outlay and revenue assumptions used to
estimate trust fund balances as part of the President's FY2015 budget.
These estimates will be important in determining whether the cash
balance is sufficient through the remainder of the current
authorization and will provide useful information on the cash balance
needed beyond FY2014. Once the President's budget is transmitted to
Congress, FTA and DOT will brief the Committee on the new estimates,
upon request.
    Despite such challenges, we have nevertheless achieved several
significant milestones for implementing MAP-21, most notably with
respect to safety; state-of-good-repair needs; the capital investment
grant program; and our new Emergency Relief Program. A summary of
progress in these and other areas follows.
Safety Authority
    MAP-21 gave FTA long-sought authority to establish safety criteria
for all modes of public transportation and establish minimum safety
standards for public transportation vehicles used in revenue
operations. Implementing the new safety provisions in MAP-21 has been
among our highest priorities. In October 2013, FTA issued an Advanced
Notice of Proposed Rulemaking (ANPRM) on Safety and Transit Asset
Management. The ANPRM signals FTA's commitment to ensure that efforts
to keep transit systems in good working order go hand-in-hand with
efforts to keep them safe. FTA is now reviewing over 150 comments
submitted by safety advocates, industry leaders, and the general public
on key topics, such as:

  <bullet>  Developing and implementing meaningful national, State-
        level, and transit agency safety plans; and

  <bullet>  Implementing a national transit asset management program to
        help transit agencies establish a systematic means for managing
        their assets and establishing performance measures for making
        improvements to the condition of their facilities, equipment,
        rolling stock, and infrastructure.

    While Congress has yet to appropriate additional administrative
funds to carry out this new area of responsibility, FTA has established
a new safety office using already strained existing resources. FTA is
sensitive to stakeholder concerns on this new safety oversight
authority and will build a 21st century regulatory program over a
period of several years only after careful consideration of comments
received from our stakeholders and the public.
    In May 2013, FTA made available for the first time approximately
$22 million in Federal matching funds to help strengthen public
transportation safety for millions of riders and transit workers
nationwide. The funding notice included a proposed formula for the
apportionment of those funds based on MAP-21 criteria. During the past
3 months, FTA has aggressively and proactively reached out to the 30
States with State safety oversight (SSO) obligations through face-to-
face meetings and one-on-one conference calls to ensure that their
programs will conform with MAP-21's new requirements, thereby
positioning those States to receive a share of the $21.9 million
available to carry out SSO responsibilities. FTA expects to release
these funds in the near future.
    Going forward, FTA will act as the leader, facilitator, and final
regulatory authority setting minimum safety standards, and be held
fundamentally accountable for the overall safety performance of the
Nation's fixed-guideway rail transit systems. To achieve these goals,
FTA will concentrate on strengthening the capacity of SSOs to serve as
effective day-to-day safety regulators capable of holding transit
systems accountable for safe operations at the local level and ensuring
they comply with minimum safety standards.
    Additionally, FTA will work to adapt its comprehensive safety
approach to all modes of public transportation within its safety
authority. Specifically, we will work to ensure that the bus segment of
public transportation, upon which millions of riders depend every day,
receives the resources, tools and technical assistance it too will need
to ensure the safety of the riding public.
State of Good Repair and Transit Asset Management
    Since 2008, FTA has staked out a leadership role in highlighting
the critical need to bring the Nation's aging transit assets into a
state of good repair, especially in large urban areas--and to hold
transit agencies accountable for implementing a more strategic approach
to managing the lifecycle of their assets. The momentum we have
initiated is real, but the gains that will truly benefit the American
people require sustained investment. FTA obligated $1.9 billion--about
one-fifth of our share of funds under the American Recovery and
Reinvestment Act of 2009--and also allocated more than $2.2 billion in
discretionary bus funds over the last 4 years for this very purpose.
Indeed, the Administration has made increased funding for a new State
of Good Repair program the centerpiece of its annual budget requests
for FTA. Congress incorporated our proposal on this essential area into
MAP-21 by creating a more needs-based state-of-good-repair formula
program for rail, ferry, and busway systems. This new program will help
further address our state-of-good-repair needs, so fixed guideway
agencies have a predictable 2-year stream of Federal funds to help them
address an enormous maintenance and repair backlog that exceeds $78
billion nationwide. By the end of FY2013, FTA had awarded 37 formula
grants funded by the State of Good Repair program for over $675.6
million. We are working to award the remaining program funds as quickly
as possible.
    FTA recognizes that while a sustained Federal contribution to our
state-of-good-repair needs is in the best interest of our Nation's
public transportation systems, this problem cannot be solved by Federal
action alone. Tackling this problem requires a concerted effort by
Federal, State, and local resources in a coordinated, strategic manner.
That is why FTA is establishing a national Transit Asset Management
(TAM) System. The new section 5326 TAM program authorized under MAP-21
is vitally important to carrying out these infrastructure investments
effectively and responsibly.
    This innovative program requires all FTA funding recipients to
adopt a strategic approach for managing their capital assets and be
accountable for leveraging all available resources to bring their
systems into a state of good repair. FTA has sponsored a successful
public dialogue with over 700 stakeholders to obtain critical input on
policy implementation. Subsequently, in October 2013, FTA used the
aforementioned Safety ANPRM as an appropriate vehicle for seeking
public comment on its initial interpretations, proposals it is
considering, and questions regarding the requirements of the national
TAM System. This includes proposed options under consideration for
defining and measuring state of good repair, and the relationship among
safety, transit asset management and state of good repair. Comments we
receive on the ANPRM will be very helpful to us in drafting a proposed
definition of state of good repair in the future rulemaking we will
issue on TAM.
    FTA will solicit comments in the Federal Register on ways to
improve how asset inventories and asset conditions are reported to the
National Transit Database--an important first step toward refining
estimates of the Nation's transit-related state-of-good-repair backlog.
This is a very important initiative that will assist FTA in ensuring
that local transit investment financed with Federal dollars are being
effectively targeted on each transit agency's greatest needs. It will
also assist us in ensuring that Federal investments are being well-
managed and well-utilized.
Capital Investment Grants (New Starts/Small Starts)
    Managing costs on capital investment grant projects is a key area
where FTA has made strides. Since 2009, FTA has executed 26 Full
Funding Grant Agreements or Project Construction Grant Agreements for
new major capital investments, and 100 percent of those projects have
either been completed or are on schedule to be completed on time; 96
percent of those are also on budget. This Administration has done its
service to America's taxpayers, who expect no less than responsible
stewardship of their investments.
    Since MAP-21 went into effect, FTA has continued to cut red tape
and bureaucracy so we can have more progress and less process related
to New Starts planning. For example, FTA recently rolled out a new tool
to help project sponsors estimate transit trips on proposed projects.
The new method, known as Transit STOPS (Simplified Trips-on-Project
Software), will enable some communities to reduce from 2 years to 2
weeks the time needed for project sponsors to develop ridership
forecasts on planned projects. This new tool may save taxpayers in
communities that do not currently have travel forecasting tools as much
as 1 million dollars.
    In addition, in August 2013, FTA issued final policy guidance to
sponsors of New Starts and Small Starts projects, which accompanies the
final rule for Major Capital Investment Projects promulgated in January
2013. The final rule adopted a more straightforward approach for
measuring a proposed transit project's cost-effectiveness; expanded the
range of environmental benefits used to evaluate proposed projects;
added new economic development factors to its ratings process; and
streamlined the project evaluation process. The revised ratings and
evaluation criteria will better capture the full range of benefits that
FTA's transit investments provide through the New Starts/Small Starts
program, while continuing an appropriate level of oversight of taxpayer
dollars. These revisions align with major purposes of MAP-21, including
improving the development and delivery of capital projects and moving
us toward a more performance-driven system. We appreciate the
Committee's support for this important achievement.
Public Transportation Emergency Relief Program
    FTA has been very aggressive in implementing the provisions of MAP-
21 in the area of emergency relief. The President's budget proposed in
FY2012 a new emergency relief program for FTA to parallel a similar
capability in FHWA. The President proposed this program to strengthen
the agency's authority to provide disaster assistance to transit
agencies in the wake of major natural disasters and other emergencies.
The program was authorized by Congress in MAP-21.
    The authorization of this new program arrived just in time for
Hurricane Sandy, which, based on the extent of storm damage, was the
worst public transit disaster in the history of the United States.
Hurricane Sandy devastated transportation systems in the hardest-hit
parts of New York and New Jersey--which together include 3 of the 20
largest transit operators in the Nation and represent nearly 40 percent
of our Nation's transit ridership--and triggered a very rapid
implementation path for the program. The Disaster Relief Appropriations
Act of 2013 appropriated $10.9 billion for the Emergency Relief Program
for recovery, relief, and resiliency efforts in areas affected by
Hurricane Sandy. Unfortunately, this amount was almost immediately
reduced by $545 million as part of sequestration. FTA is allocating the
remaining $10.4 billion in multiple tiers for response, recovery, and
rebuilding; for locally prioritized resiliency projects; and for
competitively selected resiliency work.
    FTA allocated to the hardest-hit transit agencies a total of $5.7
billion for critical Sandy recovery and resiliency work in a span of
approximately 16 weeks, beginning 1 week after President Obama signed
the Disaster Relief Appropriations Act. Funds were allocated to the New
York Metropolitan Transit Authority (MTA), the Port Authority Trans-
Hudson Corp. (PATH), New Jersey Transit (NJT), the Southeastern
Pennsylvania Transportation Authority (SEPTA), and others for expenses
incurred while preparing for and recovering from Hurricane Sandy.
    On December 23, 2013, FTA announced the availability of
approximately $3 billion in Disaster Relief appropriations to
strengthen the resiliency of public transportation systems affected by
Hurricane Sandy. FTA will award the funds on a competitive basis first
and foremost for projects that protect critical transit infrastructure
from being damaged or destroyed by future natural disasters. Our goal
is to advance the best regionally coordinated projects, so taxpayers
will not have to pay to restore the same transit services a second or
third time.
    While FTA has been extraordinarily successful in responsibly and
rapidly responding to the needs triggered by Hurricane Sandy, an
important note of caution is in order. At present, FTA has only those
emergency relief funds that Congress made available exclusively for
Hurricane Sandy. The President's FY2013 and 2014 budget requests each
sought $25 million to capitalize the Emergency Relief Program for
disasters throughout the country. Congress did not appropriate those
funds in FY2013, and the Consolidated Appropriations Act, 2014,
currently under consideration, likewise does not include funding for
the program. In the future, I strongly encourage Congress to
appropriate the amount requested so, when the next disaster strikes and
takes public transportation systems offline, FTA will be in a position
to respond immediately.
    FTA has made an extraordinary effort to make emergency relief and
recovery funding available as expeditiously as possible, to ensure that
millions of riders have access to the transit services they depend on.
To that end, FTA issued an interim final rule in March 2013 that
established eligible activities, processes, and procedures for applying
for grants. After considering comments, FTA anticipates publishing a
final rule.
Urbanized Area Formula Grants
    The largest of FTA's grant programs, this program provides grants
to urbanized areas to support public transportation. Funding is
distributed by formula based on the level of transit service provision,
population, and other factors. MAP-21 provides total funding of $4.9
billion in FY2013 and $5 billion in FY2014. The program remains largely
unchanged with a few exceptions. Job access and reverse commute
activities providing services to low-income individuals to access jobs
have been consolidated into this program and are now an eligible
expense. MAP-21 expanded eligibility for operating expenses for systems
with 100 or fewer buses in urbanized areas with populations of 200,000
or more. Operating assistance remains an eligible activity for small
urbanized areas.
Rural Transportation Service
    The Administration recognizes that public transportation in rural
areas functions not as a luxury but as a lifeline for low-income
working families, seniors, veterans, individuals with disabilities,
tribal residents, and others. Many people living in rural and tribal
communities can ill-afford to travel considerable distances to work,
medical appointments and other destinations. It is not surprising that,
given these constraints, demand for public transportation in these
areas has been rising. Thanks in large part to recent Federal
investments in rural transit, there are now more than 1,400 operators
in rural areas, providing more than 140 million rural transit trips
each year. FTA anticipates that demand for rural service will continue
to rise and, as a result, we will continue to need legislation and
policy solutions to deliver transportation solutions that rural America
needs.
    MAP-21 provides $1.2 billion in funds for rural communities and
Indian reservations over the next 2 years. It increases rural area
formula funds by 29 percent, from $465 million to $600 million. (Under
MAP-21, urbanized area formula funds increased by 6 percent over the
prior authorization, SAFETEA-LU.) Funding increased for rural areas
because we recognize that public transportation in these areas is
urgently needed, especially for residents who do not have access to
personal vehicles. Public transportation is important for providing
links between workers and rural area employers, and encouraging rural
economic development. Further, public transportation in rural areas can
provide links to urban areas and provide access to opportunities found
in those areas. For example, the VelociRFTA Bus Rapid Transit (BRT)
line serving the Roaring Forks Valley, which just opened last
September, is the first rural BRT line in the Nation. It allows
commuters from Glenwood Springs and surrounding communities to reach
employers in Aspen, about 40 miles away, in an hour. That is roughly
half the time the trip takes by regular bus service. FTA committed
nearly $25 million to the $46.2 million project through its Very Small
Starts Capital Investment Grant program.
Tribal Transit Program
    The Administration understands that access to reliable, affordable
transportation is a high priority for Indian tribes. We want to ensure
that every American Indian or Alaskan native who needs a ride to earn a
paycheck, attend school, see the doctor, or buy groceries has that
opportunity to do so.
    MAP-21 doubles the funds available for the Tribal Transit program
from $15 million in FY2012 to $30 million in FY2013 and FY2014. Under
MAP-21, $25 million of the $30 million available for the program is
distributed by formula. The remaining $5 million is provided for a
discretionary grant program, and we encourage Indian tribes to apply
for this funding as well. This resource will improve tribal public
transportation in tribal areas throughout the United States. Tribal
Transit program funds may be awarded for capital, operating, planning,
job access and reverse commute projects, and administrative assistance
for rural and tribal public transit services and rural intercity bus
service.
    MAP-21 states that Indian tribes providing public transportation
shall be apportioned funds consistent with formula factors that include
vehicle revenue miles and the number of low-income individuals residing
on tribal lands. Funds apportioned pursuant to the formula will provide
Indian tribes operating public transportation with a steady and
predictable stream of funding. FTA has actively reached out to tribal
and rural stakeholders to discuss the impact of proposed program
changes and funding priorities and considered comments before
finalizing a formula allocation methodology published in the Federal
Register on May 9, 2013. This Notice also established the framework and
guidance for the Tribal Transit Program and terms and conditions for
the formula and discretionary programs. FTA's outreach with the tribes
continued through the fall of 2013, with the delivery of three tribal
transit workshops designed to provide hands-on training and technical
assistance with the new program structure and applicable FTA
requirements.
Bus and Bus Facilities Program
    MAP-21 followed the Administration's request to fold the
discretionary bus program into a formula program. This capital program
provides funding to replace, rehabilitate, and purchase buses and
related equipment, and to construct bus-related facilities. MAP-21
authorized $422 million in FY2013 and $428 million in FY2014. Each
fiscal year, each State will be allocated $1.25 million and each
territory (including the District of Columbia and Puerto Rico) will
receive $500,000. The remaining funds will be distributed by formula.
Funds are available to designated recipients and States that operate or
allocate funding to fixed-route bus operators. Eligible subrecipients
include public agencies or private nonprofit organizations engaged in
public transportation, including those providing services open to a
segment of the general public, as defined by age, disability, or low
income. We have heard from our stakeholders, primarily states and
recipients in small urbanized areas and rural areas, that the funding
under this program is insufficient to meet rural bus acquisitions due
to replacement or expansion needs.
Formula Grants for the Enhanced Mobility of Seniors and Individuals
        With Disabilities
    The Enhanced Mobility of Seniors and Individuals with Disabilities
program provides formula funding to increase the mobility of seniors
and persons with disabilities. MAP-21 merges the former New Freedom
program, which provided grants for services that went above and beyond
the requirements of the Americans with Disabilities Act (ADA), with
this program. Projects selected for funding must be included in a
locally developed, coordinated public transit-human services
transportation plan; and the competitive selection process, which was
required under the former New Freedom program, is now optional.
    A portion of program funds may be used for public transportation
projects that exceed the requirements of the ADA; public transportation
projects that improve access to fixed-route service and decrease
reliance by individuals with disabilities on complementary paratransit
(a comparable service to public transportation required by the ADA for
individuals with disabilities who are unable to use fixed-route
transportation systems); or alternatives to public transportation that
assist seniors and individuals with disabilities.
Coordinated Transportation
    Senior and medical transportation is vitally important to the
Nation's growing senior population and citizens suffering debilitating
illnesses and chronic diseases. For example, in South Dakota, 14.6
percent of the population is 65 or older and this segment of the
population is projected to grow to 23.1 percent by 2030. We need to
support seniors who want to continue living in communities they call
home. This requires human services policies and programs that work for
the traveling public, including seniors, individuals with disabilities,
and all those seeking medical care. Moreover, transportation services
focused on these populations are often fragmented, underutilized, or
difficult to navigate, and can be costly because of inconsistent,
duplicative, and often restrictive Federal and State program rules and
regulations. And, in some cases, narrowly focused programs leave
service gaps and the available transportation services are simply not
able to meet certain needs. We are working to determine how best to
integrate the full range of mobility needs, which include ADA
paratransit, transportation for seniors, and medical transport
programs, with public transportation operations and plans. This means
focusing on the customer and coordinating the best solutions with
public and private operators and volunteer programs in the mix, as well
as coordinating with other Federal agencies that fund transportation
for these targeted populations.
    MAP-21 continues the requirement that, to the maximum extent
feasible, FTA should coordinate activities funded under the Enhanced
Mobility program with similar transportation activities provided by
other Federal agencies.
Significant Rulemakings and New Guidance Activities
    MAP-21 changes require FTA to issue a number of rulemakings and
guidance documents--a reflection of the law's many new and innovative
programs, initiatives, and requirements. FTA has worked diligently to
advance several rulemakings, and to issue proposed new guidance,
engaging thousands of stakeholders in the process. Our accomplishments
in this area in 2013 include the following:

  <bullet>  FTA is currently evaluating comments received on our ANPRM
        on Safety and Transit Asset Management. This was the first
        segment of a significant rulemaking related to FTA's new safety
        authority under MAP-21, and the input we received will greatly
        inform our proposed regulations in the coming year.

  <bullet>  FTA issued proposed guidance to assist grantees in
        implementing the Enhanced Mobility for Seniors and Individuals
        with Disabilities Program--a new program under MAP-21 that
        consolidates the New Freedom Program and the Elderly
        Individuals and Individuals with Disabilities Program.

  <bullet>  FTA issued proposed guidance to assist recipients in their
        implementation of the Urbanized Area Formula Program, which
        changed under MAP-21. Final guidance is available for public
        inspection today and will be published in the Federal Register
        tomorrow.

  <bullet>  FTA issued proposed guidance to assist recipients in their
        implementation of the Rural Area Formula Program. The purpose
        of the proposed guidance is to provide potential recipients
        with updated instructions on program administration and the
        grant application process brought about by MAP-21 changes.

  <bullet>  FTA issued proposed guidance on the application of a new
        provision regarding corridor preservation for future transit
        projects. MAP-21 amended a previously existing provision such
        that FTA can now, under certain conditions, assist in the
        acquisition of right-of-way for corridor preservation before
        the environmental review process for any transit project that
        eventually will use that right-of-way and permit corridor
        preservation with local funds for a transit project that could
        later receive FTA financial assistance.

    FTA also cosponsored several important interagency proposals under
MAP-21.

  <bullet>  FTA and the Federal Highway Administration (FHWA) jointly
        published a final rule that amends their joint procedures that
        implement the National Environmental Policy Act (NEPA) by
        creating a new categorical exclusion (CE) for emergency actions
        as required by Section 1315 of MAP-21. The final rule modifies
        the existing lists of FHWA and FTA CEs and expands the existing
        CE for emergencies.

  <bullet>  FTA and FHWA jointly published an important final rule
        streamlining the environmental review process under NEPA that a
        proposed transit project seeking Federal funds must undergo.
        The rule established ten new CEs defined specifically for
        transit projects. CEs significantly expedite FTA's
        environmental review of projects that have been shown to have
        little environmental impact while preserving critical community
        input on how planned transit projects affect the local
        environment. These NEPA revisions, like the New Starts changes,
        are closely aligned with the MAP-21 policy goals of
        accelerating the development and delivery of capital
        transportation projects.

  <bullet>  FTA and FHWA jointly issued another final rule, adding new
        categorical exclusions for projects within an existing
        operational right-of-way and projects receiving limited Federal
        funding for purposes of improving project delivery. The final
        rule was published on January 13, 2014.

  <bullet>  FTA and FHWA jointly issued proposed guidance on
        implementation of MAP-21 provisions that requires public
        transportation providers to be represented as part of each
        metropolitan planning organization (MPO) by the end of FY2014.

  <bullet>  FHWA and FTA jointly issued interim guidance on
        implementing Section 1319 of the MAP-21, which provides for the
        preparation of a Final Environmental Impact Statement (FEIS) by
        attaching errata sheets to the Draft Environmental Impact
        Statement (DEIS) if certain conditions are met, and requires,
        to the maximum extent practicable, that the lead agency will
        develop a single document that combines the FEIS and Record of
        Decision (ROD), except under certain circumstances.

  <bullet>  FTA, FHWA, and the Federal Railroad Administration (FRA)
        issued proposed regulations for the Surface Transportation
        Project Delivery Program, which MAP-21 converted from a pilot
        to a permanent program. MAP-21 changes also helped to
        accelerate project delivery by allowing the Secretary to
        assign, and for States to assume, the Federal responsibilities
        for the review of highway, transit, rail and multimodal
        projects under NEPA and responsibilities for environmental
        review, consultation or other action required under any Federal
        environmental law pertaining to the review.
Conclusion
    MAP-21 offers an important opportunity to recalibrate the way our
Government evaluates and invests in our federally funded public
transportation infrastructure. From a transit perspective, the law's
major provisions enable FTA to focus limited resources on strategic
investments and policies that will result in a better and safer riding
experience for millions of Americans, while repairing and modernizing
transit systems for generations to come. I look forward to working with
this Committee toward reauthorization.
    Mr. Chairman, this concludes my testimony and I am happy to answer
any questions you may have.
                    PREPARED STATEMENT OF DAVID WISE
  Director, Physical Infrastructure Issues, Government Accountability
                                 Office
                            January 16, 2014
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        RESPONSES TO WRITTEN QUESTIONS OF SENATOR CRAPO
                      FROM PETER M. ROGOFF

Q.1. You both indicated in your statements that the maintenance
and repair backlog exceeds roughly $78 billion nationwide to
rehabilitate or replace the Nation's aging assets.
    What part of that $78 billion is for rehabilitation and
what part constitutes replacement? Also, what is the time
period proposed for these fixes?

A.1. Recent data reported to Congress in the Department of
Transportation's 2013 Status of the Nation's Highways, Bridges,
and Transit: Conditions and Performance Report, identifies an
$85.9 billion state-of-good-repair transit backlog. This number
is based on more recent information and replaces the $78
billion backlog estimate discussed at the hearing.
    FTA research indicates that deferred rehabilitation
represents approximately $15.5 billion (18 percent) and
deferred replacement represents approximately $70.4 billion (82
percent) of the estimated $85.9 billion backlog. This estimate
is for capital reinvestment needs only and does not include
routine maintenance costs.
    FTA assumes that all deferred capital needs can be
addressed over a 20-year time period. The 20-year period
recognizes that reducing an $85.9 billion backlog requires a
long-term approach; the capacity of any industry to replace
and/or rehabilitate $85.9 billion in assets is inherently
limited and requires a long lead time--even if all of the
needed investment were immediately available.
                                ------


           RESPONSES TO WRITTEN QUESTIONS OF SENATOR
                 MENENDEZ FROM PETER M. ROGOFF

Q.1. In 2009, FTA issued a report showing that the seven
largest rail transit operators in the U.S.--which includes New
Jersey Transit--had a state-of-good-repair backlog of $50
billion. MAP-21 included reworked state-of-good-repair program,
as well as new asset management requirements. It is important
that these policies are implemented in a way that encourages
tangible improvements in the condition of our transit system.
    How will FTA ensure that these changes result in more than
just a stack of new paperwork from transit agencies? How will
you ensure these policies lead to real, measurable improvements
in the safety and reliability of transit service?

A.1. FTA appreciates the critical importance of tangible
improvement in the condition and safety of transit assets
nationwide. Toward that end, FTA is implementing key MAP-21
provisions that, for the first time, will require annual
measures certified by each transit agency chief executive
regarding the condition of transit assets and the overall
safety performance of the service provided with those assets.
FTA will monitor the transit industry's overall performance and
report annually to Congress.
    Specifically to address state-of-good-repair issues, FTA
requested comments on implementation of the National Transit
Asset Management System, which would address the 5 pillars
specified in MAP-21. Among these is a definition of state of
good repair to be established by FTA, a requirement for our
grantees to develop transit asset management plans, and new
state-of-good-repair performance measures to be established by
FTA. These performance measures, which FTA will be developing
based on the feedback and comments from our stakeholders in the
industry, are designed to ensure that all of FTA's efforts
towards state of good repair remain focused on real outcomes.
    The National Public Transportation Safety Plan specified in
MAP-21 requires FTA to address linkages between state of good
repair, safety performance, and safety standards. To oversee
these critical linkages, FTA has adopted the Safety Management
Systems (SMS) approach used by aviation, maritime, and
commercial trucking. As discussed in the National Public
Transportation Safety Program and Transit Asset Management
Advance Notice of Proposed Rulemaking, FTA requested comment on
establishing a framework that requires accountable executives
to establish a process that identifies the agency safety risks,
and either accepts those risks or implements controls to
mitigate them. SMS encourages data-driven and evidence-based
decisions regarding the allocation of resources for safety,
including those needed to ensure the safe condition of aging
assets. Using this approach, FTA anticipates significant gains
in both the operational performance and state of repair of
public transportation facilities.
    Finally, we expect to implement all of these new
requirements by building on existing policies and procedures
where practicable so as to minimize the burden on the transit
industry while encouraging a cultural change in the way transit
assets are managed.

Q.2. MAP-21 provided new oversight and enforcement authority
for FTA to ensure the safety of public transportation riders,
similar to the oversight that already exists for the aviation,
rail, and trucking industries. While this authority is a
significant increase in the role of the Federal Government in
transit safety, MAP-21 also retained the roles of the State
Safety Oversight Agencies (SSOs), which in the past have had
sharply different levels of authority and effectiveness. Your
testimony notes that FTA has been meeting with the SSOs in
recent months.
    What are FTA's takeaways from these meetings? Will the
grants and authority provided by MAP-21 be enough to ensure
that all of the SSOs are strong and effective safety
regulators?

A.2. FTA believes that the grants and authority provided by
MAP-21 will result in a robust State Safety Oversight (SSO)
program nationwide. FTA is working closely with the States to
ensure a committed implementation of MAP-21 SSO program
elements.
    Establishing an effective SSO program requires interface at
multiple levels of State Government. Therefore, FTA has adopted
a three-pronged communication strategy to manage the transition
to this new MAP-21 program, which includes the Governors of the
States (ultimately accountable for the certification of their
State's programs), the highest-ranking transportation official
in each State (charged with execution of MAP-21 requirements),
and the existing SSO agency staff (day-to-day implementation of
SSO program activities). Across the board, the SSO grant
program and new MAP-21 requirements have raised the profile of
the SSO program and heightened the awareness of senior
leadership regarding the State's responsibility for this
function.
    FTA is working with each SSO to address implementation and/
or capacity issues on a case-by-case basis. FTA is also
requiring and approving a work plan for each State to track the
specific action items and milestone schedule in place to guide
the State's implementation of the new MAP-21 program
requirements. FTA is also working on a Notice of Proposed
Rulemaking for the SSO rule, which will provide additional
guidance for States.

Q.3. MAP-21 created a series of performance measures to ensure
that recipients of Federal funds are investing in projects that
help us achieve our policy objectives. Some of these
performance measures will be largely focused on highways, such
as the congestion and performance of the Interstate System and
National Highway System. But these will also have an impact on
transit service and what priority States and communities place
on developing their transit infrastructure.
    Is FTA working with the Federal Highway Administration
(FHWA) on developing performance measures? How can DOT ensure
that these measures fully capture the contributions of transit
towards having a functional roadway network?

A.3. As part of the new performance management framework, MAP-
21 requires FHWA to establish performance measures to assess
highway safety, bridge and pavement conditions, the performance
of the interstate system and the National Highway System,
freight movement of the interstate system, traffic congestion
and on-road mobile source emissions. FTA is required to
establish performance measures for transit safety and transit
state of good repair. The FTA measures, and the locally set
targets for these measures, must be considered side-by-side
with the measures established by FHWA throughout Metropolitan
and Statewide Planning processes.
    While the measures being developed by FHWA naturally
originate with a focus on the highway system, FHWA and FTA are
working together to develop outcome-based measures that will
recognize the impacts of multimodal solutions to problems like
highway congestion, mobile source emissions and the performance
of the interstate and national highway systems. FTA is working
closely with FHWA in developing the performance measures,
soliciting public comment on the performance management
framework, and on drafting the performance measures
rulemakings. The U.S. Department of Transportation plans to
propose outcome-based measures that will allow local
communities to pursue transportation solutions that work best
for their area, including those that are multimodal, in
achieving the performance targets they set for future
performance.
                                ------


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR HEITKAMP
                      FROM PETER M. ROGOFF

Q.1. The Federal Transit Administration recently released an
advance notice of proposed rulemaking (ANPRM) regarding transit
safety and asset management. The notice posed over 100
questions to transit providers and the public. While I know
that FTA has not yet issued proposed rules, when you ask over
100 questions, people wonder if a complex rule could be under
development. I support worthwhile efforts to formulate
reasonable and effective policies to improve safety and asset
management. However, rural transit has a good safety record and
our real asset issue is not management but funding to acquire
assets or replace old buses and vans.
    Can you assure me that the rural perspective will be taken
into account in developing these rules and that FTA will not
develop rules with big city transit systems in mind and impose
them on rural systems with a handful of buses and employees?
Can and will the rules be scaled to reflect the differences
between big and small transit providers?

A.1. From the very onset of FTA's MAP-21 implementation
activities, FTA has been focused on minimizing the regulatory
and operational impact on small and rural providers. One of the
reasons a joint ANPRM was issued that covered both safety and
asset management was to limit the document review burden on
providers with limited staff hours to devote to such efforts.
    FTA is committed to minimize the burden of these
requirements on all transit agencies, but particularly those of
small providers. Where possible, FTA has made suggestions in
the ANPRM that would ease the burden on rural and small
providers, such as using existing processes and procedures as a
framework for the new requirements. For example, FTA is aware
that most small and rural operators already have detailed
revenue vehicle inventories in place as part of their National
Transit Database reports, and the asset inventory requirements
of the transit asset management plans can incorporate these.
    Additionally, FTA included more than a dozen questions in
the ANPRM explicitly addressing the unique needs of small and
rural operators in implementing these requirements. This was
done to ensure that the rural perspective will be taken into
account in developing these rules. The concerns of small and
rural operators, and the need to minimize the burden of these
new requirements on them, will be a primary consideration
throughout the development process of these rules.

Q.2. MAP-21 retains much of the prior rural formula prior
structure, but new elements were added to the apportionment
calculation. A service factor is added, which rewards rural
areas with high levels of ridership.
    Can you give us an update on the progress of the
implementation of the changes to the rural formula? Have the
changes made to the program resulted in improved program
delivery for rural Americans?

A.2. FTA apportioned the rural program (5311) formula funds
based on the new formula in MAP-21 on May 13, 2013, and will be
issuing the FY2014 formula apportionments using the new formula
in March 2014. In addition to new formula factors, these
program funds were apportioned using 2010 Census data (as
opposed to 2000 Census data).
    Although it is too soon to tell how the changes in the
formula are impacting rural programs overall, FTA has done some
analysis to isolate the impacts of change in the formula
apportionments vs. the impacts of the new Census. The results
indicate that the change in the formula resulted in an average
increase in rural program funding of 1.9 percent across all
States and the change in the Census data resulted in an average
increase of .75 percent across all States. This will continue
to change annually based on the data reported to the National
Transit Database.
    On the whole, FTA expects that a vehicle-mile based formula
will provide a more-predictable funding stream to States with
rural transit service. We also expect that over time, a
vehicle-mile based formula will incentivize the expansion of
additional transit services that will be able to take advantage
of this funding stream.

Q.3. MAP-21 authorized $30 million per year to be for the
Tribal Transit Program. Of the $30 million authorized for the
Tribal Transit Program each year, $25 million is distributed by
formula and $5 million competitively. FTA announced changes to
the Tribal Transit Program in accordance with MAP-21; however
because it needed to consult with the Tribes about the Tribal
Transit Program, FTA did not make the formula funds available
in October 2012, as it did with funds for other transit
programs.
    A notice of funding availability (NOFA) for the
discretionary Tribal transportation program was issued May 9,
2013, but an allocation of funds has yet to be announced. What
has been the response from the Tribal community with regard to
the program? When can we expect these funds to be out the door?
Will the delay of these funds impact future discretionary
dispersals?

A.3. FTA published illustrative apportionments in October 2012
when it published the partial apportionments (pursuant to the
Continuing Resolution) for its other formula programs,
primarily so it could engage with Indian Tribes to explain the
changes to the program under MAP-21, the impacts of the new
formula, and seek comment from Tribes on how it was
interpreting the new formula and applying data from both the
Census and National Transit Database for the first time under
this program. Following this consultation process, FTA
apportioned the full-year FY2013 Tribal formula program
allocations concurrently with the full-year program funds for
other formula programs in May 2013.
    Many Tribes have commended FTA for its Tribal outreach
efforts throughout FY2013 to understand the program changes and
program requirements. FTA conducted three workshops in the fall
of 2013, and through these various workshops, FTA provided
technical assistance to approximately 30 Tribes. Due to the
overwhelmingly positive response from the Tribes, FTA plans to
continue these outreach efforts in FY2014.
    As in past years, FTA received an overwhelming response to
its FY2013 Notice of Funding Availability (NOFA) for the
discretionary Tribal Transit program, and the application
period closed on July 9, 2013. FTA announced project selections
for the FY2013 discretionary Tribal program on March 18, 2014.
These discretionary funds complement $25 million allocated by
formula to eligible Tribal recipients, made available in the
FY2014 Apportionment Notice. Given the availability of our
FY2014 formula funds, we anticipate issuing the FY2014 NOFA for
the discretionary Tribal funds during spring 2014.
                                ------


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR CRAPO
                        FROM DAVID WISE

Q.1. MAP-21 emphasized the need for asset management through,
among other things, requirements for asset management
activities and providing state-of-good-repair grants. How will
this new focus on transit asset management address the national
``state-of-good-repair'' backlog?

A.1. The focus on transit asset management should help transit
agencies prioritize their capital investments and optimize
available funding, so they receive the ``biggest bang for their
buck.'' In addition, asset management tools can help transit
agencies identify the level of capital investment that would be
needed to decrease or maintain its existing state-of-good-
repair backlog. For example, MARTA (Atlanta) officials told us
that a tool--TERM Lite--has helped them assess how much state-
of-good-repair backlog is remaining or unaddressed over certain
periods of time (for example, a 10-year or 20-year period).
With a current state-of-good-repair backlog equaling $3.3
billion, TERM Lite calculated effects on the backlog and
determined that investing the budget-constrained amount of $245
million per year would increase their backlog to $6.6 billion
after 10 years and $13 billion after 20 years.
    In addition, recognizing the backlog can help direct
available funding toward reducing that backlog. For example,
according to the State of Good Repair Initiative Report to
Congress, transit agencies that received Recovery Act funding
used roughly $3.9 billion in funds to repair, rehabilitate, and
replace existing transit vehicles (mostly buses), stations,
maintenance facilities, control systems, track, and structures
with deferred investment needs. FTA estimates the $3.9 billion
in Recovery Act funding applied to rehabilitate and replace
existing transit assets yielded a roughly equal reduction in
the existing backlog.

Q.2. You both indicated in your statements that the maintenance
and repair backlog exceeds roughly $78 billion nationwide to
rehabilitate or replace the Nation's aging assets. What part of
that $78 billion is for rehabilitation and what part
constitutes replacement? Also, what is the time period proposed
for these fixes?

A.2. FTA estimates that roughly $78 billion (in 2009 dollars)
\1\ would be necessary to cover the costs of rehabilitating or
replacing the Nation's transit assets and bring them to a state
of good repair. This means that an investment of this amount
would be required for the immediate replacement of all of the
Nation's transit assets that currently exceed their useful
lives and to complete all outstanding station rehabilitations.
---------------------------------------------------------------------------
     \1\ Since there has been some inflation since 2009, the cost of
$78 billion in 2014 dollars, would be somewhat higher.
---------------------------------------------------------------------------
    We are not aware of any analysis that delineates which part
of the $78 billion backlog would be required for replacement
versus the rehabilitation of assets. However, according to
GAO's analysis of FTA data, in 2009, 55 percent (or $42.7
billion) of the $78 billion backlog was dominated by heavy rail
assets that are over age, followed by bus and commuter rail
assets. FTA also estimated that $13.5 billion and $12.6 billion
would have been required to replace all motor bus and commuter
rail assets that are over age, respectively.
    As for proposed time periods to make these fixes, FTA
calculated the average annual investment that would be required
to simultaneously eliminate the existing backlog while
concurrently meeting ongoing normal replacement and
rehabilitation needs over a 6-year, 12-year, and 20-year
period. For example, FTA estimated the level of annual
investment required to bring the Nation's assets to a state of
good repair over 6 years to be $27.3 billion including normal
replacement needs, of which $12.9 billion annually would
address the backlog, and thus $14.4 billion would be needed for
normal replacement and rehabilitation.
</pre></body></html>
